<html>
<title> - THE PERSISTENT NORTH KOREA DENUCLEARIZATION AND HUMAN RIGHTS CHALLENGE</title>
<body><pre>[Senate Hearing 114-814]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-814
 
 THE PERSISTENT NORTH KOREA DENUCLEARIZATION AND HUMAN RIGHTS CHALLENGE

=======================================================================

                                HEARING

                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS
                     
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       


       Available via the World Wide Web: https://www.govinfo.gov
       
       
       
       
       
              U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-961                  WASHINGTON : 2019             
       


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. Benjamin L. Cardin, U.S. Senator From Maryland..............     3
Hon. Sung Kim, Special Representative for North Korea Policy and 
  Deputy Assistant Secretary for Korea And Japan, U.S. Department 
  of State, Washington, DC.......................................     4
    Prepared Statement...........................................     6
Hon. Robert R. King, Special Envoy for North Korean Human Rights 
  Issues, U.S. Department of State, Washington, DC...............     7
    Prepared Statement...........................................     9

              Additional Material Submitted for the Record

United Nations Press Release, Feb. 17, 2014......................    42
Written Statement of Michael Kirby, Chair of the Commission of 
  Inquiry on Human Rights in the Democratic People's Republic of 
  Korea to the 25th Session of the Human Rights Council, Geneva, 
  17 March 2014..................................................    44
Responses of Ambassador Sung Kim to Questions Submitted by 
  Senator Marco Rubio............................................    47
Responses of Ambassador Sung Kim to Questions Submitted by 
  Senator David Perdue...........................................    47
Responses of Special Envoy Robert King to Questions Submitted by 
  Senator David Perdue...........................................    50

                                 (iii)

  


 THE PERSISTENT NORTH KOREA DENUCLEARIZATION AND HUMAN RIGHTS CHALLENGE

                              ----------                              


                       TUESDAY, OCTOBER 20, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Johnson, Gardner, Perdue, Cardin, 
Menendez, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. We will call the meeting to order.
    I think Senator Cardin will be here in just one moment. We 
have a good group here. We thank you for being here.
    Over the past decade, the Foreign Relations Committee has 
convened, every couple of years, at the full committee level to 
assess the state of U.S. policy toward North Korea. Through 
successive Republican and Democratic administrations, this 
committee has received testimony from U.S. Government officials 
highlighting the seriousness of the North Korean threat. There 
has been surprisingly little variation in their overall 
descriptions of the danger and recommended policy 
prescriptions. Undoubtedly, we will hear similar testimony 
today from our witnesses on a seemingly intractable nature of 
the North Korean threat. We thank you again for being here.
    Former U.S. officials have all characterized North Korea's 
nuclear and ballistic missile activities as posing serious and 
unacceptable risk to United States national interests. These 
same officials also stress the importance of standing with our 
close regional allies, South Korea and Japan, in the face of 
destabilizing North Korean provocations. In addition, they all 
cited the necessity of cooperating with the international 
community to deter further North Korean provocations and 
prevent the spread of sensitive technologies to and from North 
Korea. They all noted the importance of enforcing U.N. security 
sanctions on North Korea, specifically the need for China to 
exercise greater influence. And, in recent years, United States 
officials have spoken increasingly of the deplorable human 
rights situation in North Korea, including highlighting North 
Korea's notorious prison camps.
    Of course, there have been some differences in the 
approaches toward North Korea over the years, particularly with 
respect to the tactics of engaging North Korea in appropriate 
balance of carrots and sticks. Yet, in the past several decades 
of United States policy toward North Korea, it is apparent that 
has been an abject failure. Through successive administrations, 
North Korea's nuclear and ballistic missile capabilities have 
continued to advance while the North Korean people remain 
impoverished and subject to brutal treatment at the hands of 
the Kim regime.
    I appreciate the complexity of the risk posed by North 
Korea, and our limited options. However, it certainly seems 
that more could be done to address this issue. For example, at 
my request, the GAO recently completed a study examining the 
implementation and enforcement of U.S. and U.N. sanctions on 
North Korea. The study found that more than half of U.S. member 
states have not provided required sanctions implementation 
reports to the U.N., with many states lacking the technical 
capacity to prepare such reports and enforce sanctions. I 
recognize that submitting a required report to the U.N. will 
not be a game changer. However, with North Korea's proclivity 
for employing evasive techniques to acquire prohibited nuclear 
and ballistic missile-related technologies, it is certainly 
plausible that they are using some of these countries to 
acquire or transfer illicit materials. What are we doing to 
encourage or assist member states to submit these reports? 
Moreover, are we harnessing existing U.S. resources, including 
our export control programs, to raise awareness of U.N. 
obligations related to North Korea?
    Another area where there is clearly more to be done is 
forced labor of North Korean workers overseas. We know that the 
Kim regime sends a large number of workers overseas under 
contracts with other governments and foreign companies. What is 
the United States doing to persuade these countries to end the 
use of North Korean forced labor?
    Before turning to our witnesses, I would like to 
acknowledge the efforts of our chairman on the East Asia 
Subcommittee, Senator Gardner. In his short time in the Senate, 
he has demonstrated considerable leadership on the North Korea 
issue in introducing legislation and convening his subcommittee 
a few weeks ago to discuss this very issue.
    There is no silver-bullet solution to North Korea, and I 
understand that. But, I am committed to working with Senator 
Gardner, Senator Kaine, and others on this committee--certainly 
Senator Cardin, our distinguished ranking member--to see what 
Congress can do to move the needle on North Korea. I hope we 
will able to have a thoughtful discussion today that outlines 
U.S. interests in maintaining peace and stability on the Korean 
Peninsula and, more importantly, lays out tangible options to 
reduce the hazard posed by North Korea's weapons of mass 
destruction programs and provides hope to the beleaguered North 
Korean people.
    I look forward to hearing from our witnesses.
    I want to thank our ranking member for the way he helps 
lead this committee and, with that, turn to him for his 
comments.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman.
    And I want to thank both of our witnesses for being here.
    And thank you for convening this hearing. As you pointed 
out, Senator Gardner, 2 weeks ago, held a hearing in regards to 
North Korea, and I thought that was very helpful. North Korea 
is critically important to our policies in Asia and our global 
policy. So, I very much appreciate this hearing.
    The United States has invested much in the Korean 
Peninsula, including the military commitments that we have 
made--the soldiers who gave their lives for that region, as 
well as our continuing commitment of military strength on the 
Korean Peninsula.
    The Republic of Korea is a close ally of the United States, 
and obviously their security is very much influenced by the 
conduct of North Korea. The rebalance to Asia policy that we 
have talked about frequently very much--involves what happens 
in North Korea, and we spend a lot of time talking with our 
allies in the region about the strategic importance of the 
Korean Peninsula.
    I visited Seoul 2 years ago. And when you are standing in 
Seoul or when you go up to the Demilitarized Zone, you 
understand how fragile that region is and how vulnerable it is 
on security issues. Clearly, our policy of a denuclearized 
peninsula is critically important to the security of the 
Republic of Korea and is critically important to regional 
security.
    I also recognize that we cannot do this alone, that we have 
to work with China, we have to work with Japan, we have to work 
with other countries in the region if we are going to be 
successful. Proliferation is not the only concern we have in 
regards to North Korea--their involvement in cyber attacks 
obviously, is a major threat to our interests and one that we 
need to deal with.
    I could not end my comments without talking about the human 
rights problems in North Korea. These abuses include large-
scale executions, murder, enslavement, torture, imprisonment, 
rape, forced abortions, and sexual violence. North Korea 
operates a series of secretive prison camps where perceived 
opponents of the government are sent to face torture and abuse, 
starvation, and forced labor. Fear of collective punishment is 
used to silence dissent. There is no independent media, 
functioning civil societies, or religious freedom.
    So, whatever one's views are on the various U.S. policy 
efforts in the past two decades, what has worked and what has 
not worked, and why, there can be little question that these 
efforts have failed to end North Korea's nuclear or missile 
programs, failed to reduce threat posed by North Korea to our 
allies, failed to alleviate the suffering of the North Korean 
people, and have failed to lead to greater security in the 
region. Certainly, there are no easy answers when it comes to 
how to be successful when dealing with a regime like North 
Korea. But, I am hopeful that today's hearing and the 
conversations we have today may help us to get to a place 
where, 20 years from now, we can look back at successfully 
having ended North Korea's nuclear and missile programs, having 
addressed the needs of the North Korean people, and having 
built greater stability and security on the Peninsula 
throughout the Asia-Pacific region.
    The Chairman. Thank you, Senator Cardin.
    Our first witness is the Honorable Sung Kim, Special 
Representative for North Korea Policy and Deputy Assistant 
Secretary for Korea and Japan at the State Department.
    Thank you so much for being here, sir.
    Our second witness is the Honorable Robert King, Special 
Envoy for North Korean Human Rights Issues at the Department of 
State.
    Thank you, sir.
    I think you understand, if you would, please summarize your 
comments in about 5 minutes. Without objection, your written 
comments will be entered into the record. And we look forward 
to the question period.
    Thank you both very much. And if you would begin, Mr. Kim.

 STATEMENT OF HON. SUNG KIM, SPECIAL REPRESENTATIVE FOR NORTH 
   KOREA POLICY AND DEPUTY ASSISTANT SECRETARY FOR KOREA AND 
        JAPAN, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Kim. Thank you very much, Mr. Chairman.
    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you very much for inviting me today, along 
with my good colleague, Ambassador King, to testify about North 
Korea. We appreciate the interest and attention you have given 
to this critical challenge.
    This year, as we mark 70 years since the end of World War 
II and celebrate the tremendous progress the Asia-Pacific 
region has seen over the past seven decades, we are reminded 
how sadly different the last 70 years have been for the people 
of North Korea. North Koreans continue to suffer under a 
government that makes choices contrary to their interests, 
choices that pose a threat to North Korea's neighbors and the 
international community.
    The DPRK continues to violate its commitments and 
international obligations, and continues to pursue nuclear 
weapons and their means of delivery as a strategic national 
priority, all at the cost of the well-being of its own people 
and while perpetrating horrific human rights abuses against 
them.
    Holding North Korea responsible for its own choices does 
not mean just waiting and hoping the regime will one day come 
to its senses. We are committed to using the full range of 
tools--deterrence, diplomacy, and pressure--to make clear that 
North Korea will not achieve security or prosperity while it 
continues to pursue nuclear weapons, abuses its own people, and 
flouts its long-standing obligations and commitments. North 
Korea's bad behavior has earned no benefits from the United 
States. Instead, we have tightened sanctions and consistently 
underscored to the DPRK that the path to a brighter future for 
North Korea begins with authentic and credible negotiations 
that produce concrete denuclearization steps.
    Part of our effort to change North Korea's strategic 
calculus means leaving no doubt that the United States stands 
ready to defend our interests and our allies from the North 
Korean threat and have made it a priority to strengthen and 
modernize our alliances for the 21st century. In this, we could 
have no better partners than our allies and friends in Seoul 
and Tokyo. Just last week, President Obama and President Park 
Guen-hye again reaffirmed this commitment.
    As we maintain the strongest possible deterrence 
capabilities, we have also increased the cost to the DPRK of 
its destructive policy choices by applying sustained pressure 
on the regime, both multilaterally and unilaterally. In 
January, the President issued a new Executive order giving us 
important, powerful, broad new sanctions tools. And, from the 
day it was introduced, we used this Executive order to sanction 
wrongdoings in the DPRK regime, and we will continue to use 
this new tool along with our other sanctions authorities.
    Our financial sanctions are always most effective when 
supported by our partners. And so, we have also focused on 
strengthening multilateral sanctions against North Korea. Last 
year, we led efforts at the United Nations to sanction North 
Korea's major shipping firm, and we have stepped up 
coordination with the partners to ensure the sanctions was 
enforced. Since then, these designated foreign ships have 
denied port entry, scrapped, impounded, and all confined to 
their home ports in North Korea. And the shipping firm has lost 
its contracts with many foreign-owned ships. We will continue 
to press for robust implementation of U.N. sanctions and 
enhanced vigilance against the DPRK's proliferation activities 
worldwide.
    Equally important is North Korea's political isolation, 
driven by the overwhelming international consensus that North 
Korea cannot fully participate in the international community 
until it abides by its obligations and commitments. We have 
built and maintained that consensus through our active and 
principled diplomacy.
    That diplomacy, of course, begins with our partners in the 
six-party talks--South Korea, Japan, China, and Russia. Our 
coordination ensures that wherever Pyongyang turns, it hears a 
strong, unwavering message that it must give up its--it must 
live up to its obligations and that the path to a brighter 
future begins with credible negotiations and concrete 
denuclearization steps.
    That principled stance also undergirds the attempts each of 
the five parties has made to engage North Korea directly. When 
we offer to meet directly with the North Koreans during my 
travel to the region, when South Korea strives to improve 
inter-Korean relations, when Japan seeks an accounting of its 
abducted citizens, and even in China and Russia's dealings with 
the North, all five parties have consistently underscored the 
imperative of denuclearization, and together we continue to 
call on North Korea to refrain from actions that would raise 
tensions in the region or threaten international peace and 
security. We also have made clear, at the same time, to 
Pyongyang that the path of engagement in credible negotiations 
remains open.
    Ambassador King will brief you on one other very important 
piece of our active diplomacy in North Korea, our work to 
amplify victims' voices, to sustain the international 
community's attention on the suffering of the North Korean 
people, and to hold the regime to account for its abuses.
    Mr. Chairman, sending a strong, clear message holding North 
Korea accountable for its commitments and obligations requires 
a sustained and international effort. We and our partners are 
engaged in that effort every day through our active deterrence, 
pressure, and diplomacy.
    Thank you again for the opportunity to appear today. I look 
forward to your questions.
    [The prepared statement of Ambassador Kim follows:]

   Prepared Statement of Deputy Assistant Secretary of State Sung Kim

                              introduction
    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for inviting me today, along with my colleague 
Ambassador Bob King, to testify about North Korea. We appreciate the 
interest and attention you have given to this critical challenge.
                             dprk behavior
    This year, as we mark 70 years since the end of World War II and 
celebrate the tremendous progress the Asia-Pacific region has seen over 
the past seven decades, we are reminded how sadly different the last 70 
years have been for the people of North Korea. North Koreans continue 
to suffer under a government that makes choices contrary to their 
interests--choices that pose a threat to North Korea's neighbors and 
the international community.
    The DPRK continues to violate its commitments and international 
obligations, and continues to pursue nuclear weapons and their means of 
delivery as a strategic national priority--all at the cost of the well-
being of its own people and while perpetrating horrific human rights 
abuses against them.
                              u.s. policy
    Holding North Korea responsible for its own choices does not mean 
just waiting and hoping the regime will one day come to its senses. We 
are committed to using the full range of tools--deterrence, diplomacy, 
and pressure--to make clear that North Korea will not achieve security 
or prosperity while it pursues nuclear weapons, abuses its own people, 
and flouts its long-standing obligations and commitments.
    North Korea's bad behavior has earned no benefits from the United 
States. Instead, we have tightened sanctions and consistently 
underscored to the DPRK that the path to a brighter future for North 
Korea begins with authentic and credible negotiations that produce 
concrete denuclearization steps.
                               deterrence
    Part of our effort to change North Korea's strategic calculus means 
leaving no doubt that the United States stands ready to defend our 
interests and our allies from the North Korean threat and have made it 
a priority to strengthen and modernize our alliances for the 21st 
century. In this, we could have no better partners than our allies and 
friends in Seoul and Tokyo.
                                pressure
    As we maintain the strongest possible deterrence capabilities, we 
have also increased the costs to the DPRK of its destructive policy 
choices by applying sustained pressure on the regime, both 
multilaterally and unilaterally.
    In January the President issued a new Executive order giving us 
important, powerful, broad new sanctions tools. From the day it was 
introduced, we began using this Executive order to sanction wrongdoers 
in the DPRK regime. And we will continue to use this new tool, along 
with our other sanctions authorities. In July the Treasury Department 
announced new sanctions and updated our listings for previous North 
Korean sanctions targets to make it harder for them to hide behind 
aliases and front companies.
    Our financial sanctions are always more effective when supported by 
our partners, and so we have also focused on strengthening multilateral 
sanctions against North Korea. Last year, we led efforts at the U.N. to 
sanction North Korea's major global shipping firm, and we have stepped 
up coordination with partners to ensure the sanction was enforced. 
Since then, this designated firm's ships have been denied port entry, 
scrapped, impounded, or confined to their home ports in North Korea, 
and the shipping firm has lost its contracts with many foreign-owned 
ships. This means the DPRK pays a real cost for its maritime 
proliferation.
    We will continue to press for robust implementation of U.N. 
sanctions and enhanced vigilance against the DPRK's proliferation 
activities worldwide.
                               diplomacy
    Equally important is North Korea's political isolation, driven by 
the overwhelming international consensus that North Korea cannot fully 
participate in the international community until it abides by its 
obligations and commitments. We have built and maintained that 
consensus through our active, principled diplomacy.
    That diplomacy begins with our partners in the six-party talks: 
South Korea, Japan, China, and Russia. Our coordination ensures that 
wherever Pyongyang turns, it hears a strong, unwavering message that it 
must live up to its international obligations, and that the path to a 
brighter future begins with credible negotiations and concrete 
denuclearization steps.
    That principled stance also undergirds the attempts each of the 
Five Parties has made to engage North Korea directly: When we offer to 
meet directly with the North Koreans during my travel to the region . . 
. when South Korean President Park strives to improve inter-Korean 
relations . . . when Japan seeks an accounting of its abducted citizens 
. . . and even in China and Russia's dealings with the North--all Five 
Parties have consistently underscored the imperative of 
denuclearization. And, together, we continue to call on North Korea to 
refrain from any actions that would raise tensions in the region or 
threaten international peace and security.
    We also have made clear to North Korea that the path of engagement 
and credible negotiations remains open.
                              human rights
    Ambassador King will brief you on one other piece of our active 
diplomacy on North Korea: our work to amplify victim's voices, to 
sustain the international community's attention on the suffering of the 
North Korean people, and to hold the regime to account for its abuses.
                               conclusion
    Mr. Chairman, sending a strong, clear message holding North Korea 
accountable to its commitments and international obligations requires a 
sustained, international effort. We and our partners are engaged in 
that effort every day through our active deterrence, pressure, and 
diplomacy.
    I thank the committee for the opportunity to appear today. I am 
happy to answer your questions.

    The Chairman. Mr. King.

   STATEMENT OF HON. ROBERT R. KING, SPECIAL ENVOY FOR NORTH 
     KOREAN HUMAN RIGHTS ISSUES, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador King. Thank you, Chairman Corker, members of the 
committee. I appreciate the invitation to testify on U.S. 
policy on human rights in North Korea with my colleague, 
Ambassador Sung Kim. This is an issue on which there is broad 
consensus, bipartisan agreement. Both Congress and the 
administration are united in our efforts to press North Korea 
to improve its deplorable human rights record.
    The DPRK remains a totalitarian state, denies freedoms of 
expression, religion, peaceful assembly, association, and 
movement, as well as worker rights. Tens of thousands of North 
Koreans endure deplorable conditions in political prison camps, 
where government officials commit systematic and widespread 
human rights violations, including extrajudicial killing, 
forced labor, torture, prolonged arbitrary detention, rape, 
forced abortion, and other sexual violence.
    Mr. Chairman, since the release of the report of the United 
Nations Commission of Inquiry on Human Rights in North Korea in 
February of 2014, we have made significant progress in our 
efforts to focus international attention and pressure on North 
Korea. The U.N. Commission of Inquiry report concluded that, 
``Systematic, widespread, and gross human rights violations 
have been, and are being, committed by North Korea and its 
officials.'' The report found a number of long-standing and 
ongoing patterns of systematic and widespread violations which 
meet the high threshold required for proof of ``crimes against 
humanity in international law.''
    One of the most powerful elements of the report were the 
detailed testimony of North Korean refugees sharing firsthand 
accounts of abuse and violence that they suffered in their 
horrific experience in fleeing their homeland. This report was 
considered by the U.N. Human Rights Council in Geneva. A year 
ago September, during the high-level session of the General 
Assembly, Secretary Kerry hosted a meeting on this issue with 
the U.N. High Commissioner for Human Rights, the Foreign 
Ministers of South Korea, Japan, Australia, and other 
countries. And last fall, the U.N. General Assembly considered 
a resolution which welcomed the Commission of Inquiry report, 
criticized North Korea, and referred the report to the Security 
Council, urging the Council to consider holding to account 
those North Korean officials responsible for human rights 
violations, including through consideration of referral to the 
appropriate international criminal justice mechanism.
    In December last year, the Security Council held a serious 
3-hour discussion of North Korea's human rights, and placed the 
issue on the Council's agenda. At the recommendation of the 
Human Rights Council, the High Commissioner for Human Rights 
has established a field office to strengthen monitoring and 
documentation of human rights in the DPRK and to support the 
work of the Special Rapporteur on North Korea Human Rights. At 
the request of the High Commissioner's Office, South Korea has 
agreed to host this field office, and the office was officially 
opened in June.
    In all of these activities over the past year and a half, 
the United States has played a leading role in gathering 
support and in putting pressure on North Korea. As I have 
participated in these activities at various U.N. bodies, two 
things have struck me. First, North Korea is feeling 
international pressure for its human rights abuses. North 
Korean rhetoric decrying what it calls ``the human rights 
racket'' has become more frequent and more strident. After the 
Commission of Inquiry report was released, the North Koreans 
condemned the Commission and issued its own fictitious reports 
on human rights in the United States and South Korea. The North 
sent its Foreign Minister to the high-level session of the U.N. 
General Assembly in September 2014, the first time in 15 years 
that the North Korean Foreign Minister attended that session. 
He was there again this fall. I think this very clearly 
indicates the North Koreans are feeling the pressure, they are 
uncomfortable, and they are trying to push back.
    Second, with a growing number of countries condemning North 
Korea's human rights violations, the DPRK has few supporters 
left. The vote for the General Assembly resolution critical of 
the North and endorsing the Commission of Inquiry report was 
adopted by a vote of 116 countries in favor, 20 opposed, with 
53 abstentions. Only a handful of countries supported the DPRK, 
and those countries were the Who's Who of the world's worst 
human rights violators.
    As I look back over what has taken place over the past year 
to focus attention on human rights abuses in North Korea, I am 
reminded of the statement of Commission of Inquiry chair, 
Michael Kirby, when he presented the Commission report, ``With 
the body of evidence detailing North Korean human rights 
atrocities that is now available, no country can honestly say, 
'We did not know.'''
    Mr. Chairman, I would like to add a couple of words about 
another critical issue related to human rights in North Korea. 
In the North--our effort to increase access to information to 
the DPRK is one of the most important things that we are doing. 
In the North, it is illegal to own a radio that can be tuned. 
The only radio or television sets that are legal are those that 
are preset to state-controlled information channels. Despite 
this obstacle, the latest Broadcasting Board of Governors study 
of North Korean refugees and travelers found that 30 percent of 
North Koreans listen to foreign radio broadcasts inside North 
Korea. Foreign entertainment videos are watched by far larger 
numbers; 90 percent have seen South Korean dramas--soap 
operas--inside North Korea. According to published reports, 
over 2 million cell phones now permit North Koreans to 
communicate with each other on a domestic network. The system 
does not permit international telephone calls, but those cell 
phones do allow people to communicate quickly within the 
country.
    Given the closed nature of North Korean society, radio 
remains the most important effective means of sharing 
information from the outside world with the residents of North 
Korea. The United States is a strong supporter of independent 
broadcasting to North Korea. Thank you for the congressional 
support for Radio Free Asia, Voice of America, and other 
independent broadcasters. These efforts are vital in breaking 
down the information barriers that the government has placed on 
its own people.
    Thank you, Mr. Chairman, for the opportunity to appear 
today.
    [The prepared statement of Ambassador King follows:]

              Prepared Statement of Ambassador Robert King

    Chairman Corker, Senator Cardin, and members of the committee, 
thank you for inviting me to testify today on U.S. policy on human 
rights in the Democratic People's Republic of Korea (DPRK). This is an 
issue on which there is broad bipartisan agreement, and both Congress 
and the administration are united in our effort to press North Korea to 
improve its deplorable human rights record.
    Today, the DPRK remains a totalitarian state, which seeks to 
dominate all aspects of its citizens' lives. It is a regime that denies 
freedoms of expression, religion, peaceful assembly, association, and 
movement, as well as worker rights. Numbers of North Koreas endure 
deplorable conditions in political prison camps, where government 
officials commit systematic and widespread human rights violations 
including extrajudicial killing, enslavement, torture, prolonged 
arbitrary detention, as well as those involving rape, forced abortions, 
and other sexual violence.
    Mr. Chairman, since the release of the U.N. Commission of Inquiry 
report in February 2014, we have made significant progress in our 
effort to increase international pressure on the DPRK. Our DPRK human 
rights policy has focused on giving voice to the voiceless by 
amplifying defector testimony, and increasing pressure on the DPRK to 
stop these serious violations. And we are committed to seeking ways to 
advance accountability for those most responsible.
                 calling attention to the rights abuses
    In February 2014, upon completing a year-long investigation, the 
U.N. Commission of Inquiry issued a final report, concluding that 
``systematic, widespread, and gross human rights violations'' have been 
and are being committed by the DPRK, its institutions, and its 
officials. The report further concluded ``a number of long-standing and 
ongoing patterns of systematic and widespread violations . . . meet the 
high threshold required for proof of crimes against humanity in 
international law.'' The Commission's comprehensive 400-page report is 
the most detailed and devastating expose of North Korea's human rights 
violations to date, and it laid bare a brutal reality that is 
difficult, if not impossible, to imagine.
    One of the most powerful elements of the extensive report was the 
detailed testimony of North Korean refugees. The Commission held a 
series of public hearings in Seoul, Tokyo, London, and Washington, 
where it heard from North Korean refugees sharing firsthand accounts of 
the abuse and violence they suffered, such as denial of access to food, 
gender-based violence, and numerous other human rights violations in 
the prison camps, and their horrific experiences fleeing their 
homeland. The full proceedings of these hearings have been made 
available on the U.N. Web site in video and in printed transcript.
    Over the past year, we have sought to continue the Commission's 
great work giving voice to the voiceless. Shortly after the U.N. 
Commission of Inquiry's report was presented, the United States joined 
Australia and France in convening the U.N. Security Council's first-
ever informal discussion of the human rights situation in North Korea. 
Thirteen of the fifteen members of the Security Council attended that 
informal discussion with members of the Commission of Inquiry and with 
two North Korean refugees.
    In September 2014, during the High-Level Session of the U.N. 
General Assembly in New York, Secretary of State John Kerry hosted a 
meeting on North Korea's human rights violations with the U.N. High 
Commissioner for Human Rights, and the Foreign Ministers of South 
Korea, Japan, Australia and a number of other countries.
    Most recently, our Permanent Representative to the United Nations, 
Ambassador Samantha Power, hosted a U.N. event in April giving victims 
of DPRK abuses the opportunity to detail their experiences. Nearly 300 
individuals attended the event, including more than 20 North Korean 
refugees, U.N. Permanent Representatives and diplomats, representatives 
of nongovernmental organizations representatives, and members of the 
press. Three North Korean officials attempted to disrupt the 
proceedings by reading a statement during the defector testimony, which 
led to a brief confrontation, before they were escorted from the 
auditorium. The event was widely covered in the press.
    We continue to meet with recent defectors on a regular basis and to 
seek ways to continue amplifying their voices, as they speak on behalf 
of the millions of North Koreans who are denied enjoyment of human 
rights and fundamental freedoms.
                      monitoring and documentation
    It is important that we listen to these refugee voices, not only to 
increase our understanding of the ongoing human rights violations, but 
also to record the violations committed by the regime, in order to hold 
those perpetrators accountable for their abuses.
    Since the release of the Commission of Inquiry report, we continue 
to engage with civil society and the international community on future 
accountability measures. One of the most important steps we have taken 
to date is supporting the creation of a field office under the Office 
of the High Commission for Human Rights to strengthen monitoring and 
documentation of the human rights situation in the DPRK and to support 
the work of the U.N. Special Rapporteur on DPRK human rights issues. At 
the request of the High Commissioner's office, South Korea agreed to 
host this field office. The office was formally opened in June when the 
High Commissioner for Human Rights Zeid was in Seoul. We welcome the 
decision to open this office, which will play an important role in 
maintaining visibility and encouraging action on human rights in the 
DPRK.
    We also continue our support to numerous nongovernmental 
organizations who continue their tireless efforts to document the 
ongoing human rights abuses in the DPRK.
                          increasing pressure
    In addition to increasing our efforts to amplify refugee voices and 
to document violations, we have been increasing pressure on the DPRK to 
stop the serious human rights violations documented in the report. In 
the immediate aftermath of the release of the Commission of Inquiry's 
report, we worked with our like-minded partners to adopt a strongly 
worded resolution at the March 2014 U.N. Human Rights Council session, 
which welcomed the report and recommended that the General Assembly 
submit the report to the Security Council for its consideration and 
appropriate action in order that it consider holding to account those 
responsible for human rights violations, including through 
consideration of referral of the situation in the DPRK to the 
appropriate international criminal justice mechanism. The United States 
has since supported resolutions addressing the human rights situation 
in the DPRK in both the U.N. General Assembly and at the March 2015 
Human Rights Council session.
    In December 2014, the U.N. Security Council formally discussed the 
issue of DPRK human rights. In the procedural vote to place that issue 
on the Security Council's agenda, 11 of the Council's 15 members voted 
in favor of placing the item on the Seizure List, two voted no, and two 
abstained. Since this was a procedural and not a substantive vote, 
permanent members of the Security Council do not have a veto. China and 
Russia voted against putting the issue on the Seizure List. The Council 
had a serious, thoughtful 3-hour discussion of this issue. We continue 
to work with other like-minded members of the Security Council with the 
intention of continuing to raise North Korean violations and seeking 
opportunities to take action.
    Mr. Chairman, as I participated in these activities at various U.N. 
bodies over the past year, two things have struck me.
    First, it is clear that the DPRK is feeling growing international 
pressure in response to its human rights violations. The mounting 
criticism of its human rights record has had an effect on Pyongyang. 
North Korean rhetoric decrying what it calls ``the human rights 
racket'' has become more frequent and strident, and, of course, it 
blames the United States. After the attention given the Commission of 
Inquiry report, the North condemned the Commission and issued its own 
so- called ``reports'' on human rights in the United States and in the 
Republic of Korea. The North sent its Foreign Minister to the high 
level session of the U.N. General Assembly in September 2014 for the 
first time in 15 years, and he was back in New York again this fall. 
Senior DPRK officials have dramatically increased the number of visits 
to other U.N. member states to urge other countries to vote against 
resolutions critical of the DPRK's human rights practices in the U.N. 
General Assembly and Human Rights Council.
    Second, with a growing number of countries condemning North Korea's 
human rights violations, the DPRK has very few supporters left. At the 
U.N. Human Rights Council sessions in Geneva and the General Assembly 
and Security Council sessions in New York, only a handful of countries 
supported the DPRK. Most of those that voted against the relevant 
resolution on the DPRK did so because of general objections to country-
specific resolutions in those fora, not because they defend North 
Korea's human rights record. And those countries that voted against the 
resolutions critical of the DPRK were the ``Who's Who'' of the world's 
worst human rights violators.
    As I look back over what has taken place in the past year to focus 
attention on the human rights record of North Korea, I am reminded of 
Commission of Inquiry Chair Michael Kirby's statement when he presented 
the Commission's report. With the body of evidence detailing North 
Korean human rights violations, he said, no one can now say ``We did 
not know.'' No country can honestly say that they did not know the 
atrocities taking place in the DPRK.
    Mr. Chairman, I would also like to add a few words about another 
critical issue related to human rights in North Korea--our effort to 
increase access to information in the DPRK. When the Commission of 
Inquiry presented its report to the U.N. Human Rights Council, it also 
released a 20-minute documentary, highlighting particularly critical 
testimony of North Korean defectors. Because North Korea is one of the 
most closed societies on this planet--Internet access is reserved for a 
very tiny elite and it is illegal to listen or watch foreign radio or 
television broadcasts--ordinary North Koreans had no way to see the 
documentary, let alone any independent news reports on the abuses 
taking place inside their own country today.
    While this information blockade makes it extremely difficult for 
North Koreans to read the Commission's report or watch the video, we 
have recently seen indications that information from the outside is 
becoming more available in North Korea.
    It is still illegal to own a radio that can be tuned, and the only 
legal radio or television sets are those pre-set to state-controlled 
information channels. Despite this obstacle, the latest Broadcasting 
Board of Governors (BBG) study, a survey of North Korean refugees and 
travelers who were interviewed outside of North Korea, found that:

  <bullet> As many as 29 percent of North Koreans had listened to 
        foreign radio broadcasts while inside the DPRK.
  <bullet> Foreign DVDs are now being seen by even larger numbers--
        approximately 92 percent of those interviewed had seen South 
        Korean dramas (soap operas) while in North Korea.
  <bullet> According to open source reports, over 2 million cell phones 
        now permit North Koreans to communicate with each other on a 
        domestic network, though the system does not permit 
        international telephone calls. Those cell phones are closely 
        monitored, but they do allow information to circulate.

    Given the closed nature of North Korean society, international 
media are among the most effective means of sharing information about 
the outside world with residents of the country. The United States is a 
strong supporter of broadcasting independent information about North 
Korea and the outside world into North Korea. Thank you for the 
continuing congressional support for Radio Free Asia (RFA), Voice of 
America (VOA), and other nongovernmental broadcasters. These efforts 
are important in breaking down the information barriers that the DPRK 
Government has imposed on its own people. Because of government 
policies, radio remains the most important means to get information 
into the DPRK.
    Mr. Chairman, together with our partners in the international 
community, we must make clear to the DPRK that its egregious human 
rights violations prevent economic progress and weaken the country. The 
United States has long made clear that we are open to improved 
relations with North Korea if it is willing to take concrete actions to 
live up to its international obligations and commitments, including 
those relating to human rights.
    The world will not, and cannot, close its eyes to what is happening 
in North Korea. Ultimately, we will judge the North not by its words, 
but by its actions. It needs to refrain from actions that threaten the 
peace and stability of the Korean Peninsula and comply with its 
international obligations under U.N. Security Council resolutions to 
abandon nuclear weapons and existing nuclear programs, among other 
things.
    We have consistently told the DPRK that while the United States 
remains open to meaningful engagement, North Korea must take concrete 
steps to address the core concerns of the international community, from 
the DPRK's nuclear program to its human rights violations.
    North Korea will have to address its egregious human rights 
violations. North Korea's choice is clear. Investment in its people, 
respect for human rights, and concrete steps toward denuclearization 
can lead to a path of peace, prosperity, and improved relations with 
the international community, including the United States. Absent these 
measures, North Korea will only continue to face increased isolation--
as well as pressure for meaningful human rights progress from the 
international community.

    The Chairman. Well, we thank you both for your service, and 
appreciate you being here. And you are likely to hear some 
frustration today--it is not directed at you individually--
because this issue has been around for a long time and, as I 
mentioned in my opening comments, not much has changed, and we 
have had different administrations focus on this. I know 
Senator Gardner has some legislation that he hopes will focus 
on this in a little bit different way.
    But, let me start with you, Mr. Kim. Are we deluding 
ourselves to think that denuclearization of the Korean 
Peninsula is even possible?
    Ambassador Kim. Thank you very much, Mr. Chairman.
    First of all, I completely share your frustration.
    The Chairman. Yes.
    Ambassador Kim. As someone who has been working on Korean 
Peninsula issues for some time, I share your concern and 
frustration that we have not been able to make more concrete 
progress.
    If you look at what has happened on the nuclear issue, I 
think it is easy to reach the conclusion that maybe this is 
just an impossible reach. But, frankly, I do not think we have 
the option of giving up. I think we have made very clear that 
we will never accept North Korea as a nuclear weapon state, and 
I think there is a very strong consensus view in the 
international community that North Koreans must live up to 
their obligations and commitments. And those obligations and 
commitments are not just U.N. Security Council resolutions, but 
North Korea itself made commitments, in the six-party process, 
to abandon its nuclear weapons and existing nuclear programs.
    So, I think the task before us, as challenging as it is, is 
to work with the international community to apply enough 
pressure, but leaving the diplomatic options open, to persuade 
North Korea--to lead North Korea to make some smart decisions 
on the nuclear issue. I agree completely, Mr. Chairman, that it 
will not be easy, but I also believe that we must continue to 
try.
    The Chairman. Can you even name some specific steps that 
cause there to be a different outcome in North Korea than the 
things that have been occurring for so long?
    Ambassador Kim. Sir, I do think, over the past 2 or 3 
years, our sanctions enforcement has improved. And that has 
caused some pain in Pyongyang. I cannot get into too much 
detail in this setting, but we do know that revenues from North 
Korea's illicit activities overseas have gone down as a result 
of stronger international enforcement of sanctions. And this 
has to do with better enforcement of not just multilateral 
sanctions, but better cooperation from our partners on 
unilateral sanctions, as well. And so, that is got to be 
putting some pressure on North Korea.
    I think if you look at relations between China and North 
Korea, while changes have not been dramatic, I think it is--we 
can see that there--the relations have been strained, and 
perhaps that will lead to Beijing applying some more meaningful 
pressure on North Korea to lead them to make some strategic 
decisions.
    So, I think there are a number of factors that have changed 
over a period of time, and I think there is--we obviously need 
to continue to work on both increasing pressure but also 
intensifying our diplomatic effort with our partners.
    The Chairman. Mr. King just referred to a resolution at the 
U.N. relative to the human rights abuses that are taking place 
in North Korea, but China did not support that. Is that 
correct?
    Ambassador King. That is correct, yes.
    The Chairman. So, I mean, I am sorry, I am not seeing much 
of a change. I know that having visited--and I know Senator 
Cardin mentioned having visited as well--South Korea, and China 
and Japan, all in one trip. It does not appear to me that 
China's focused on anything but stability and really does not 
want to deal with the issue of North Korea on their border. So, 
I am sorry, I am not seeing anything that looks like there has 
been much change as recently as a vote--an easy vote, when you 
have a country like North Korea that is abusing human beings 
the way they are, and you have their neighbor, which will not 
even support a resolution highlighting that--I am sorry, I just 
do not see a change. You are not involved in China policy, but 
I am not seeing any dynamics on the ground that are changing in 
any way. If you could illuminate, I would be appreciative.
    Ambassador Kim. Mr. Chairman, generally speaking, I agree 
with you that we have not seen the kind of serious, concrete, 
meaningful changes on the ground in Beijing that would lead us 
to be optimistic. But, we have seen some evidence that Chinese 
enforcement of sanctions--border patrols, control of export of 
dual-use items--have improved. We have also seen that flow of 
Chinese assistance to North Korea has not increased any in 
recent years.
    I think we need to continue to remind China that it hurts 
their own interests when they let North Koreans misbehave and 
take provocative actions in violation of existing obligations 
and commitments. China cares, as you have mentioned, deeply 
about stability. Well, at some point, North Korea's 
irresponsible behavior will undermine China's desire for 
stability. And I think we need to constantly remind them of 
that.
    As you know, when President Xi Jinping was here a few weeks 
ago, he made very clearly publicly that China remains fully 
committed to the common goal of denuclearization and that they 
would oppose any actions by the North Koreans in violation of 
Security Council resolutions. And I think we need to hold them 
to that public commitment.
    The Chairman. Did the administration bring up with 
President Park when she was here the issue of putting THAAD 
missile defense system there on the Peninsula? I know they have 
been resistant to that. Was that part of the discussion?
    Ambassador Kim. Sir, the THAAD issue was not specifically 
addressed, as far as I know, but obviously, in the context of 
maintaining the strongest possible deterrence capabilities on 
the peninsula, the need to improve our missile defenses has 
been discussed with the South Koreans, and I think we will 
continue to explore how best we can defend ourselves.
    The Chairman. Well, it does not appear they are very 
receptive to something that would work and certainly protect 
their interests and ours. So, I am surprised that we had a 
meeting with President Park and that issue did not come up at 
the highest level. So, again, it just feels like, to me, we are 
easing along the same place we have been for a long, long time. 
I am not criticizing you in any way. I see no change. I see no 
hope for dealing with this issue. And I do look forward to 
additional discussions regarding what Congress might do to push 
this along, although the options are fairly limited.
    If I could, Mr. King--I have just got a moment--I think the 
one issue that gets under their skin is the issue of human 
rights. And I thank you for the way that you have highlighted 
that. And it is really pretty amazing what they are doing to 
their own people. And, while this may be highlighted to a 
degree, what would you suggest that we might do here to even 
more fully highlight the incredible abuses that they are 
wreaking upon the people of their country?
    Ambassador King. As you know, Senator, I have a job because 
the Congress insisted that there be a position.
    The Chairman. Right.
    Ambassador King. And that continues. The administration is 
committed and dedicated to moving forward on--pressing the 
human rights issue.
    As I mentioned, information is one of the most important 
things. Continued support for Radio Free Asia, Voice of 
America, is extremely important, in terms of breaking down the 
information monopoly in North Korea. We need to continue our 
efforts, in terms of pressing North Korea, which we have done 
very effectively through the United Nations. And I am not sure 
that there is something new that is needed, but we need to 
continue that effort, we need to continue that pressure. And 
the North Koreans are feeling uncomfortable. We need to make 
them feel more uncomfortable, and we will continue to do that. 
Thank you for the support that the Congress has given on the 
human rights issue.
    The Chairman. And I hope at some point--my time is up--but 
I hope at some point someone will ask you the question, or you 
will slip in the answer regardless of whether they do or not, 
relative to what we are doing. They are using forced labor, 
sending out forced labor around the world. Unanimously, this 
committee passed a modern slavery bill to address the fact that 
there are 27 million people around the world today enslaved. 
Obviously, North Korea is doing that today, sending people out 
around the world. I hope at some point you will highlight that.
    Thank you both.
    And I will turn to the ranking member.
    Senator Cardin. Well, let me join the chairman in thanking 
both of you not only for being here but for the public service 
that you both provide.
    I want to follow up on the human rights issue. Obviously, 
the primary focus on North Korea is going to be its nuclear 
program. There are those who believe that North Korea has 
developed a nuclear program so that we cannot use other tools 
in our toolbox to get them to change their behavior, due to our 
fear that they could utilize a nuclear response. And that is a 
genuine concern. So, a denuclearized Korean Peninsula is 
absolutely essential, and we must do everything we can to make 
that a reality.
    But, I want to get to the human rights issues. I do not 
know that there is another country in the world that is worse 
to its people than North Korea. And that is not a great honor 
to have. Mr. King, in your testimony you have been very clear 
about the world condemnation of North Korea in international 
bodies. There is no question about that. But, despite all of 
the world condemnation of what North Korea does to its own 
citizens, it continues to do that. And, yes, information can 
make a difference. And the means of communications have 
changed. So, North Korea will open up, people will get 
information. But, with the regime's oppression, people are 
afraid to even talk among themselves about what is going on in 
North Korea, due to the fear that someone will inform the 
government, and they will be arrested, be sent to camps, and be 
tortured, and their families will be tortured.
    So, I am looking for new ideas. What can the United States 
do, working with the international community on behalf of the 
people of North Korea, to protect the citizens of North Korea? 
What new ideas can we explore?
    Ambassador King. Thank you very much for your interest in 
the human rights questions. You always ask the tough questions.
    No easy answers, no silver bullets. Part of what we need to 
do--and, in some ways, the most difficult thing to do--is 
persist. We are looking for a quick solution. We want an answer 
before the next news cycle. And, unfortunately, with North 
Korea, it is going to take us longer. We are beginning to have 
an effect in North Korea. There is more information available 
in North Korea than there has been in the past. The fact that 
90 percent of North Koreans have seen these South Korean soap 
operas--they are great soap operas. I am not a particular fan 
of soap operas. But, the one thing that is interesting, as in 
the 1950s, when American movies and American television was 
first shown in the Soviet Union, people were interested in the 
plot, but they were really interested in what the kitchen 
looked like. And the same kind of information is now affecting 
people in North Korea. People in North Korea know a lot more 
now about what South Korea is like. People know a lot more now 
about what is going on in the world, because people are 
listening to information. It is difficult. It is not easy.
    When we look back over where we have had progress, in terms 
of dealing with similar kinds of issues--in Central Europe, in 
the 1950s and 1960s and 1970s, and suddenly in the 1980s there 
was change--we need to continue to persist in what we are 
doing, and continue to press the North Koreans.
    We are looking at options, in terms of information, but, 
unfortunately, in spite of the fact that the rest of the world 
is using the Internet, it is virtually nonexistent in North 
Korea. The best source of information in North Korea is radio. 
And that is how information comes in. It continues to be a most 
important element. People have cell phones, but, unlike in 
Iran, where people can use their cell phones to access the rest 
of the world--there are radio programs where people will call 
in from Iran on their cell phones to make comments on a radio 
broadcast that is being produced in the United States--in North 
Korea, that does not happen. People do not have access to the 
Internet, they do not have access to international phone lines.
    We need to continue what we are doing. We need to persist 
in what we are doing. We need to continue what we have been 
doing in the United Nations to raise this issue and raise the 
profile of the issue. And I think eventually we will succeed. 
But, it is persistence more than new ideas, I think, that are 
going to bring about change.
    Senator Cardin. Well, I thank you for your commitment 
there.
    Secretary Kim, it seems to me, to get a change in behavior 
in North Korea, it is going to require greater support from 
China. China could bring about change in North Korea. There is 
a question as to whether they really want to, or not. Having 
North Korea as a buffer on the peninsula protects against 
Western influence, and therefore some believe that it is not 
unhealthy for China to maintain a North Korea presence on the 
peninsula--as there is today.
    What can we do in our relationship with China to get them 
more engaged on denuclearizing North Korea as well as dealing 
with the welfare of the people of North Korea? Mr. King 
mentioned their challenge to get information. One of the things 
we could do is work with China to find ways to open up North 
Korea to a little more modern way of communication so that we 
can get information to them. In China, people have access to 
information. Admittedly, the government censors it and it is 
not complete and they have their own propaganda, but at least 
the people of China do get access, at least limited access, 
much more than the people of North Korea.
    So, what we can do in our relationship with China to start 
a transformation process in North Korea?
    Ambassador Kim. Thank you very much, Senator.
    We can do a lot more. More importantly, I think the Chinese 
can do a lot more. I mean, it is clear that the Chinese have a 
considerable amount of leverage on North Korea. And we are just 
not seeing that they are exercising that leverage effectively. 
And this is related to the chairman's question earlier, as 
well.
    I think this notion that North Korea serves as a useful 
buffer for China is badly outdated. And I certainly hope that 
leaders in Beijing are not subscribing to that notion anymore. 
In fact, if you look at the development of Beijing's----
    Senator Cardin. Then why are they not more aggressive in 
North Korea?
    Ambassador Kim. Well, I mean, I think they are, as you 
mentioned, constantly concerned about stability, and they are 
worried that if they push too hard, too fast, that they will 
face instability along their borders.
    But, I was going to say that--I mean, I think if you look 
at how Beijing's relations with Seoul has evolved and improved, 
it is easy to see that the future of China's relations on the 
Peninsula is with the Republic of Korea, not with North Korea. 
And I think we need to remind China that China's constant 
defense of North Korean misbehavior will hurt China's own 
interests, and it will undermine China's pursuit of strong 
relations with South Korea, with which it has a very robust 
trade relationship, economic relationship, people-to-people 
ties. It is growing every day. So, I think we need to 
constantly remind the Chinese that, first of all, they need to 
use their considerable leverage more effectively. They have a 
responsibility, as the chair of the six-party process, to find 
some way back to credible and authentic negotiations on the 
nuclear issue. They have that responsibility.
    Senator, with regards to your question about working with 
the Chinese on facilitating information flow--and I think this 
is something that we should explore. I mean, I am not 
optimistic that they will be very forthcoming about it, but it 
is certainly worth considering.
    Senator Cardin. Well, I will just point out that we are 
pursuing a cyber policy with China and we are trying to get a 
level playing field there, consistent with our objectives. 
Seems to me we may have a chance in regards to the ability of 
people to understand what is happening in the world and could 
make progress in North Korea.
    The Chairman. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I would like to pick up where Senator Cardin left off, in 
terms of China. Mr. King, you said that China does not want to 
use North Korea as a useful buffer. But, then you said they are 
concerned about instability along their border. Is it your 
view, is it the administration's view, that if they pressed 
North Korea to denuclearize, to open up their society, that it 
would create a refugee flow out of North Korea into China?
    Ambassador Kim. No, sir, I do not necessarily agree with 
that perspective. I was just relaying what I understood to be 
China's concerns.
    Senator Johnson. Okay, I do not understand it. Why does 
China continue to support this regime? What is in it for China? 
I mean, if North Korea is not that buffer against the West, 
then why would they continue to do this? It does not seem like 
it is particularly stable to me. A nuclearized North Korea with 
ballistic missile technology, firing these things over their 
neighbors' heads seems pretty unstable. So, what is in it for 
China? I am really trying to understand that.
    Ambassador Kim. Well, China has a long-standing special 
relationship with North Korea. And our sense is that Beijing is 
simply not ready to give up on--or abandon that relationship. 
But, I agree completely with you that the actions that the 
North Koreans are taking are destabilizing for China's own 
interests. And if China really strives to be a leading nation 
in the international community, I think they would want a 
neighborhood that is stable and peaceful.
    Senator Johnson. But, I am looking for a rational 
explanation of why China would continue to support North Korea. 
Considering every action I have looked at shows that North 
Korea just destabilizes the region.
    You know, Mr. King, maybe you can answer that for me or 
provide some measure of rationale for this.
    Ambassador King. I do not have any insights. It is very 
clear that the Chinese have been pushing the North Koreans in a 
more positive direction. But, I think North Korea is not an 
easy ally to deal with. And my guess is, North Koreans are not 
being terribly cooperative----
    Senator Johnson. Does China fear North Korea because they 
have nuclear weapons, by any chance?
    Mr. Kim.
    Ambassador Kim. I would--may I--I am obviously not speaking 
on behalf of the Chinese Government, but my sense is that they 
have reached the conclusion that in order to make some positive 
changes in North Korea it will require enormous pressure. And I 
think their concern is that enormous pressure on Pyongyang, on 
the regime, will lead to instability. And I believe that is----
    Senator Johnson. So, define ``instability.'' I understand 
the word, but define it. What would become less stable than it 
currently is? In other words, are they willing to, basically, 
put up with North Korea because they repress their population 
to the point that the people will stay in North Korea and then 
China does not have worry about a refugee flow from North 
Korea?
    Ambassador Kim. Sir, I mean, again, I am at--you know, I do 
not want to be a spokesperson for other Chinese Government----
    Senator Johnson. No, I understand. I am just asking for 
your theory----
    Ambassador Kim. Well----
    Senator Johnson [continuing]. Of the case.
    Ambassador Kim. Yes. My understanding is that the Chinese 
are worried that if there is too much pressure, too fast, on 
the regime in Pyongyang, that it will lead to instability in 
Pyongyang that spreads over throughout the country, and that 
there will, in fact, be refugee flows into China. I believe 
that is one of their concerns.
    Senator Johnson. Let us talk about sanctions. Mr. King said 
that information is key. And I agree with him. Earlier, when 
you were answering questions from our chairman, you said that 
you cannot describe some of these sanctions in this setting. I 
just want to ask, first of all, why?
    First, let me ask about the history of sanctions. News 
reports and analysis from the Bush administration showed that 
the United States sanctioning of individuals, seemed to be 
working pretty well. And then, those were relaxed and obviously 
did not really affect North Korea's behavior past that point. 
Can you just give me a sense of what sanctions have worked, 
what has the history been, where are we now versus where we 
were during the Bush administration? And the final question is: 
What is classified about that? What is sensitive about that? If 
we wanted to get information out there, I would think an overt 
policy, an overt strategy of sanctioning North Korea, would be 
something we would want to publicize.
    Ambassador Kim. Senator, I would--maybe I was not clear 
enough earlier. I was not suggesting that I could not talk 
about sanctions in general. I was suggesting that some of the 
specific effects we have had with certain sanctions involves 
classified information and, therefore, I could not get into 
those.
    Senator Johnson. Okay.
    But not--okay. So, give me the history of sanctions. What 
have we found that has worked? Again, analysis I have read in 
open source news showed that when we were sanctioning 
individual North Korean leaders, that was effective. And then 
we relaxed those sanctions. Is there reluctance to put those 
back in place? What is happening?
    Ambassador Kim. Well, first, North Korea remains one of the 
most heavily sanctioned countries anywhere. We have North 
Korea-specific Executive orders that give us a lot authority to 
designate North Korean entities--personnel, officials, and 
entities that support the regime. We also have general 
Executive orders--topic-based nonproliferation Executive orders 
that we can apply to the North Korea context. Obviously, export 
controls are another way that we control--try to sanction North 
Korea.
    I believe, Senator, you are referring to the Banco Delta 
Asia----
    Senator Johnson. Correct.
    Ambassador Kim [continuing]. Sanctions that were in place 
during the Bush administration. I agree with you, that had a 
very effective role--that played an effective role. But, again, 
I mean, I should probably defer to my colleagues in the 
Treasury Department, but the difficulty of replicating 
financial sanctions like that is that, because we were so 
successful, the North Koreans are basically operating outside 
of the international financial system. Therefore, it is very 
difficult to come up with similar sanctions targeting banks 
that have dealings with North Korea, because North Korean are 
basically operating outside of the international banking----
    Senator Johnson. Okay.
    Ambassador Kim [continuing]. System. But, I agree with you, 
I think we need to continue to explore all possible 
opportunities to strengthen our sanctions regime against North 
Korea, both in terms of coming out with new unilateral 
sanctions, but also making sure that our partners in the 
international community are cooperating better in enforcing 
Security Council resolution sanctions.
    Senator Johnson. So, bottom line, they learned from those, 
and they have circumvented those types of sanctions so they are 
not as effective anymore.
    In your testimony, you said that North Korea continues to 
violate its commitments and international obligations. With the 
few seconds we have remaining, can you specifically tell us 
what are the commitments and international obligations that 
they are violating?
    Ambassador Kim. Well, sir, I mean, multiple Security 
Council resolutions call for North Korea to abandon its nuclear 
ambitions--programs, also calls on North Korea to stop using 
ballistic missile technology. So, every time North Koreans take 
an action, whether it is a nuclear test or, frankly, even 
continued pursuit of their nuclear ambitions, it is a violation 
of Security Council resolutions. In their own commitment to the 
six-party process and the joint statement of 2005, they agreed 
to abandon their existing nuclear programs and nuclear weapons 
programs. So, clearly they are not living up to their 
obligations and commitments.
    Senator Johnson. Okay, thank you. I just wanted that on the 
record.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    It sounds like that China would rather a country of 25 
million people be tortured, raped, imprisoned, beat down on 
their border than doing anything about it.
    Senator Johnson. And apparently they view that as ``stable 
situation.''
    The Chairman. That is right.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me, first, say, Ambassador Kim, I really appreciate the 
service you gave to our country, and continue to do, 
particularly the time that you were Ambassador to South Korea. 
I think you did an extraordinary job in advancing our 
interests, and I want to salute you, as well as Mr. King, who 
has for many years worked on the question of human rights with 
the incredible Tom Lantos in the House of Representatives, 
where we had opportunities to work together. And I must say, I 
do not know what you are drinking or eating, but nothing has 
changed about you, so, Bob, I will tell you, it is pretty good.
    I am glad that the committee remains vigilant with respect 
to the threat that North Korea presents to our national 
security interests and the security interests of our friends 
and allies, whether that threat is conventional, nuclear, or 
cyber. And that is exactly what I had in mind when I introduced 
bipartisan legislation with several of my Democratic and 
Republican colleagues, the North Korea Sanctions and Policy 
Enhancement Act of 2015 last session and again this session 
when Congress failed to take steps on it. And I believed then, 
and I believe now, in two guiding principles:
    First, that effective deterrence needs leadership. Nuclear 
and missile tests, cyber attacks, highlight the continuing 
threat that North Korea poses to the United States and our 
friends and allies in the region. We need to see more action to 
energize a strategy, decisive U.S. leadership, and a broad 
international coalition to keep pressure on the regime.
    And second, it seems to me that the United States needs 
strategic focus, not strategic patience. A strategic approach 
to security and stability on the Korean Peninsula should 
include effective sanctions, military countermeasures, 
diplomatic pressure, the full range of American instruments of 
power to keep the world focused on the threat that North Korea 
presents.
    That is why the 2015 North Korea Sanctions and Policy 
Enhancement Act that I wrote expands the ability of the 
administration to sanction property and seize funds of the 
people or organizations that provide support to the regime. It 
expands the ability of the administration to sanction support 
for cyber attacks or cyber vandalism, and it enhances the 
ability of humanitarian organizations to provide life-saving 
assistance to reduce the suffering of the North Korean people.
    So, I know several colleagues have joined us. We welcome 
others to join us, as well. I shared our draft, before we 
introduced it, with Senator Gardner, as the chairman of the 
subcommittee, and I think that the legislation you have 
introduced has a lot of similarities. I would look forward to, 
hopefully, working with you in that regard.
    And, Mr. Chairman, when the time comes to move or mark up a 
piece of legislation, I certainly would like the consideration 
of some of the elements that we will be pursuing, and hopefully 
we can work with Senator Gardner to have a joint, unified, 
powerful message to the North Koreans.
    The Chairman. If I could, that would be our goal. And I 
should have mentioned your efforts, also, in regards to 
producing legislation to deal with this. And we thank you for 
that.
    Senator Menendez. No, problem.
    Ambassador Kim, have you had an opportunity to look at the 
two pieces of legislation that are being considered?
    Ambassador Kim. Thank you very much, Senator.
    First of all, I remember very well your visit to Seoul 
while I was still serving as Ambassador, and it was a wonderful 
visit.
    We are continuing to look at the legislation that you 
mentioned. I do not have any specific comments to make on the 
two draft bills. But, we have--obviously appreciate the 
attention you and Senator Gardner are giving to this very 
important issue.
    Senator Menendez. Well, let me just pursue, since we have 
the--your expertise here, some of the--there is a lot of 
similarity between our legislation, but there are some 
differences. The major difference between the two bills comes--
is whether an administration will be required to impose 
sanctions in certain cases or be left with discretionary 
authority and a flexibility to do so. What considerations would 
you urge us to be mindful of when we are addressing that issue?
    Ambassador Kim. Sir, in general, I think, you know, it is 
important to have some discretion, because I think the goal is 
to maximize our effect. And sometimes maximizing that effect 
means coordination diplomacy with our partners. And that can be 
difficult to achieve if, in fact, there is absolutely no 
discretion in how these measures are applied.
    Senator Menendez. Legislation that I drafted permits some 
discretion. And there is a reticence here, I must say, after 
the Iran situation, on the question of what degree of 
flexibility an administration will be given, understanding 
that, whether it is this one or a future one, there are 
concerns about that. So, that is one of the realities. But, I 
understand that--the difficulty of the blunt instrument of 
something that is automatic even when you do not want it to be 
automatic, because you may be having a goal. So, it is finding 
the right balance there.
    Also, our legislation actually funds the efforts that we 
want to do through 5 million of the Assets Forfeiture Funds to 
enforce sanctions as well as applying fines and penalties 
derived from sanctions enforcement for enforcing the North 
Korea Human Rights Act, which I think is important.
    Ambassador King, let me ask you, humanitarian exceptions or 
hard lines for those who suffer? The two versions differ 
substantially on the exceptions it would provide; in the case 
of my bill, carving out strong protections from sanctions for 
humanitarian organizations that provide important lifesaving 
aid to civilian populations facing humanitarian crisises. 
President Reagan reminded us that a hungry child knows no 
politics. Do we want to encourage humanitarian organizations to 
continue to do this work? Are these organizations effective in 
the North Korea context?
    Ambassador King. One of the things that is involved, in 
terms of humanitarian exceptions, we have had that, 
traditionally, in most programs that have been adopted, have 
been enacted into law--there is benefit, in terms of being able 
to do that, because providing humanitarian assistance, as 
President Reagan says, is something that we should be able to 
do. At the same time, when we provide humanitarian aid, we have 
to take into consideration the amount of money that is 
available overall. And we also have to take into account our 
ability to monitor the delivery of the aid to make sure it is 
reaching those that are most in need. And, to the extent that 
we are able to take those factors into consideration, I think 
there is benefit to an exception. I think it is also 
important--and certainly that was the case when we, at one 
point, were talking about North Korea and humanitarian 
assistance--that we keep the Congress fully informed of what is 
going on, what our intentions are, and what our progress is, in 
terms of dealing with those issues.
    In terms of private humanitarian groups, I think that is 
something we ought to encourage. There are a number of American 
organizations that are currently involved in providing some 
assistance to North Korea. This is done with private funds that 
they have raised on their own. They provide a nice counterpoint 
to what the official North Korean propaganda is saying when 
Americans are providing assistance for multi-drug-resistant 
tuberculosis or when they are providing medical equipment that 
would not otherwise be available, I think it is helpful and 
important. And we have tried to be helpful to organizations 
that are providing that kind of aid.
    Senator Menendez. One final quick question. Ambassador Kim, 
it is a little off topic, but it is about the topic, in the end 
of the day. President Park, I see she is in China, Russia. What 
does--what is that all about, from your perspective? And how 
should we see that, in light of the efforts that we are 
making--trying to make as it relates to North Korea and the 
security of the Korean Peninsula?
    Ambassador Kim. Thank you, Senator.
    I think, first, it is important to remember that, for the 
Republic of Korean Government leadership and its people, the 
U.S.-ROK alliance is fundamental and is the foundation for all 
of their international relations. And I think we should view 
her efforts with China and Russia in that context.
    Starting with the need for Chinese cooperation on the 
challenge posed by North Korea, I think there are many reasons 
why South Korea wants to improve relations with China. And we 
are not troubled by it. I mean, I think it is, in fact, useful 
for China to deal with responsible democratic countries like 
South Korea that believes in rule of law, respects human 
rights, et cetera. They have a huge trade relationship. I mean, 
China is South Korea's number one trading partner by a big 
margin, and we expect that that will continue. So, there are 
many reasons why South Korea would want to engage China and to 
work with them on North Korea and other issues.
    I think, similarly, with Russia, Russia is a member of the 
six-party process, and they have been somewhat constructive in 
making clear their commitment to the shared goal of the six-
party process, the shared goal of denuclearization. And I think 
President Park probably wants to make sure that the Russians 
remain in that position and work with us as we look for a way 
back to some credible and authentic negotiations.
    Senator Gardner [presiding]. Thank you.
    And, Chairman Corker is heading to the floor to vote, and 
we will just change in and out here.
    And I believe the only way that we will have a successful 
sanctions package of legislation is through bipartisan, 
bicameral approach. I look forward to working with you on 
legislation, and Senator Cardin, of course, who is been at the 
first hearing, as well. And so, thank you very much for that. 
And look forward to continuing to work with you.
    Ambassador Kim, you do not mention the widely used 
descriptor of strategic patience in your testimony to describe 
the policy toward North Korea. Is strategic patience no longer 
the policy the administration is pursuing toward North Korea?
    Ambassador Kim. Thank you, Senator.
    I am not sure strategic patience was ever our policy, per 
se. I think it was to describe the approach we were taking to 
negotiations and that we would not rush back to negotiations 
just for the sake of talking to the North Koreans.
    I think, in terms of policy, it has always been a 
combination of making sure that we maintain a very strong 
deterrence capability on the peninsula and in the region, 
making sure that we continue to work on our sanctions and 
pressure, and also making sure that we have closest possible 
diplomatic coordination. That was our policy. I think strategic 
patience was just to describe the sense that we were not going 
to rush into anything----
    Senator Gardner. So, strategic patience is not the policy 
of the administration. That is what you are saying.
    Ambassador Kim. That is--yes.
    Senator Gardner. Okay. The previous Secretary of State 
believed that it was the policy of the administration.
    Ambassador Kim. I believe the Secretary was--then Secretary 
was referring to the approach we were taking, that, given all 
of the mistakes that we had made on the North Korean issue, 
dating back to the agreed framework days in the 1990s, that we 
wanted to be cautious and deliberative about resuming any 
negotiations. We wanted to make sure that we gave ourselves the 
best possible chance to make some lasting and concrete progress 
on the nuclear issue.
    Senator Gardner. All right, if that is not the policy, then 
we are being cautious and avoiding the mistakes that were made, 
what are the key differences today, in today's policy, from 
strategic patience?
    Ambassador Kim. No, I think we have continued to exercise 
discipline, in terms of sort of the possibility of resuming 
negotiations. We have also continued to work on our sanctions 
and pressure. I think our alliances with Japan and Korea have 
never been stronger, because we have continued to work at 
strengthening those deterrence capabilities. And I think we 
have also continued to work on tightening our diplomatic 
coordination, not just among the five parties in the six-party 
process, but more internationally.
    Senator Gardner. So, what would you describe our policy 
toward North Korea to be, then?
    Ambassador Kim. Well, and I do not have a catchy phrase for 
you, Senator, but, I mean, I would say it is a robust 
combination of working on deterrence, diplomacy, and pressure.
    Senator Gardner. But, nothing really has changed. There is 
no new thought toward North Korea. It is just continuing what 
has been taking place.
    Ambassador Kim. But, I think intensifying our efforts on 
all three fronts increases pressure on North Korea. And, as we 
mentioned earlier, stronger sanctions enforcement has had some 
effect. Now, obviously, short of what we would like to see, 
which is complete denuclearization and improvement in the human 
rights situation, et cetera. But, we are making it more 
difficult for North Korea to continue to pursue their dangerous 
capabilities. We are making it more difficult for them to 
proliferate, to engage in other illicit activities.
    Senator Gardner. Ambassador Kim, while it has not been 
significant in terms of a comparable economy, they have seen 
economic growth recently. Is that correct?
    Ambassador Kim. I think it is always hard to tell their 
exact economic state in North Korea, because the information is 
so limited. We have seen anecdotal accounts that perhaps life 
in Pyongyang may be improving, but that is a far cry from 
suggesting that the economy of North Korea is improving.
    Senator Gardner. So, you are starting to see some anecdotal 
evidence of that. Their nuclear arsenal is growing. Is that 
correct?
    Ambassador Kim. We know that they have continued to work on 
their capabilities, and we believe they are making advances, 
yes.
    Senator Gardner. And so, it is difficult for me to hear how 
the sanctions are effective and that the more pressure we are 
bearing is actually working, when they are starting to see some 
economic anecdotal evidence of directions--positive direction, 
and the nuclear arsenal is growing.
    In your testimony, you do not mention cybersecurity as a 
concern with regard to North Korea. Do you believe that 
cybersecurity or cyber---the cyber threat from North Korea is a 
real and growing threat?
    Ambassador Kim. Yes. We are very concerned about it. In 
fact, I think we saw, with these cyber attack on Sony Pictures 
Entertainment, the North Koreans are capable of carrying out a 
very destructive cyber attack.
    Senator Gardner. And you believe they are a threat to--
asymmetric threat to South Korea as well as United States, from 
a military perspective?
    Ambassador Kim. They pose a very serious threat to our ally 
in South Korea as well as the homeland, yes.
    Senator Gardner. How can we counter these threats?
    Ambassador Kim. I think we have to continue to make sure 
that we maintain the strongest possible deterrence capability 
on the peninsula and beyond. I have to say, I mean, as someone 
who has worked on U.S.-ROK alliance, I mean, I think we can 
honestly confidently say that the alliance has never been 
stronger. And that gives me confidence that we can deal with 
whatever provocative actions North Koreans may choose to take.
    Senator Gardner. On October 18, following the summit 
between President Obama and President Park here in Washington, 
North Korea's Foreign Ministry has stated that, while it is not 
willing to resume talks regarding its nuclear program, it is 
willing to sign a peace treaty with the United States to 
formally end the Korean war. Is the administration 
contemplating any negotiations with North Korea without 
preconditions regarding its nuclear program and human rights 
abuses?
    Ambassador Kim. First of all, with regards to the North 
Korean statement suggesting that we enter into peace treaty 
discussions, I mean, we have no interest in entering into any 
such discussions. I mean, for us, the priority focus has to be 
the nuclear issue. And, as they often do, I am afraid North 
Koreans have their priorities wrong by suggesting that we sort 
of jump some steps, some very important steps, and start peace 
treaty negotiations.
    Senator Gardner. So, they are--you would--there are 
preconditions before you enter into the conversations. Those 
preconditions still remain.
    Ambassador Kim. Sir, what we have been discussing with our 
partners is that we want to make sure that, if and when we 
resume negotiations, we do it with the right amount of focus 
and commitment from the North Koreans that the goal is 
denuclearization. And, frankly, at the moment, we cannot even 
get the North Koreans--as you mentioned, the Foreign Ministry 
statement--we cannot even get the North Koreans to focus on 
denuclearization as a goal. So, that is why we have not resumed 
any negotiations.
    Senator Gardner. But, would you resume negotiations on 
conversations--the six talks--six-party talks even if they 
agreed that nuclearization--denuclearization would not be a 
part of those conversations?
    Ambassador Kim. No, I think North Koreans would have to 
agree very clearly that denuclearization is the common goal, 
and that they will work with us sincerely in the six-party 
talks.
    Senator Gardner. As a precondition.
    Ambassador Kim. Yes.
    Senator Gardner. As a precondition. Thank you.
    In April this year, going back to the issue of nuclear 
warheads, Admiral Bill Gortney, the Commander of NORAD, said 
that North Korea has developed the ability to launch a nuclear 
payload in its very own KN-08 intercontinental ballistic 
missile that is capable of reaching the United States. As 
Admiral Gortney stated, Pyongyang has the ability to put a 
weapon on a KN-08 and shoot it at the homeland. What is your 
assessment of North Korea's missile capabilities? Can they 
reach the United States? How much more testing do you 
anticipate? And are they preparing right now for additional 
tests?
    Ambassador Kim. We are obviously very concerned, because we 
know that they are continuing to work on their missile 
capabilities. I cannot comment specifically on the Admiral's 
comments in this setting, but we are obviously very concerned 
about the advances the North Koreans have made.
    Senator Gardner. Do you have any disagreement with his 
assessment of the amount of warheads that North Korea has, 
their capability in the next 5 years?
    Ambassador Kim. Sir, I mean, I do not think I should be 
commenting specifically in this setting.
    Senator Gardner. Okay.
    Ambassador Kim. I mean, I would be happy to provide 
additional details in a classified setting.
    Senator Gardner. I would appreciate that. And I think we 
are trying to work that through right now, in addition to other 
questions that we have.
    But, I think it is--Senator Murphy, I believe you are next 
in line.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you, to both of our witnesses, for all of your work.
    I think we can all agree that we are stuck, and that we 
have effectively been stuck since the failure of the ``Leap 
Day'' agreement and the North Korean scuttling of it. And I 
think it is natural for us to explore what new policy 
alternatives may be available to us to try to change the 
calculus inside North Korea.
    But, I appreciate, Ambassador King, your emphasis on the 
importance of persistence. Sometimes continuing a strategy, and 
sticking with it, is just as effective, if not more effective, 
than constantly changing it when you do not get the results you 
want. In the 1980s, we stuck to a policy of, in every possible 
forum, calling out Russia's terrible human rights and open 
society record. It did not work for a long time, and then all 
of a sudden it worked. Over the course of the last 8 years, we 
focused like a laser beam on building international sanctions 
against Iran to bring them to the table on their nuclear 
program. It did not work for a long time, and then all of a 
sudden it worked. And so, I think it is important that we take 
steps to give some new authorities to the administration, and I 
look forward to working with Senator Gardner. But, I also think 
it is important for us to recognize that sometimes consistent 
pressure does bear fruit. And history certainly has proven 
that.
    Ambassador Kim, sir, we have had these fits and starts of 
negotiations, fruitful talks, and then ultimately the North 
Koreans backing away. What have we--I know we are dealing with 
a new leader, here, and we are certainly not confident of what 
motivates him, but what have we learned, in the past, about 
what has brought the North Koreans to the table that should 
educate us about the levers that we should be pressing to try 
to restart the six-party talks, going forward?
    Ambassador Kim. Thank you very much, Senator.
    I agree completely that persistence and consistency are 
very important. And, in fact, that is the approach that the 
administration has tried to take over the past several years. 
We are not going to see immediate success on any of these 
issues, but I think, through coordinated, sustained pressure, 
diplomatic coordination, we are giving ourselves a much better 
shot, and making some progress.
    I agree, also, that we have learned some very painful 
lessons from our past efforts at negotiating with the North 
Koreans, starting with the Agreed Framework, there is a much 
more bilateral effort, and then, of course, in the six-party 
process, the multilateral effort. I think we have learned some 
very important lessons. And I would just highlight a couple.
    One is that, as you suggested, I think sustained pressure 
is important. And that requires coordination and cooperation 
from the international community.
    I also think it is important for us to be coordinated 
diplomatically, as well, so that we are sending a single clear 
message to the North Koreans, so that we are not giving the 
North Koreans an opportunity to run to Seoul and get some 
benefits, run to Tokyo and get some benefits. And I think, 
through very close cooperation, we have managed to remain 
disciplined together. And I think that is an approach that 
should help us position better for any resumed negotiations.
    Senator Murphy. We were talking, before, about China's fear 
of instability on their border. And we talk a lot about our 
desire to get rid of autocrats and despots, but our failure to 
talk about what comes next--and so, it actually should be a 
conversation that we should be having, as well, if we were to 
ratchet up pressure on the regime of Kim Jong-un.
    So, can you talk a little bit about what we know or what we 
surmise might be a post-Kim Jong-un future in North Korea? I 
mean, let us say we were successful in ultimately putting so 
much pressure on the regime that there was revolution, that 
there was change. Are we confident that what would come in its 
place? China seems confident that what would follow on would be 
bad for China. It is hard to imagine what could be worse, 
right? I mean, it is hard to imagine anything that could be 
worse for the North Korean people, that could be worse for the 
interests of the United States. But, have we thought through 
what comes next?
    Ambassador Kim. I mean, I personally agree with you that it 
is hard to imagine that whatever follows would be worse. But, I 
think it is very difficult to speculate, based on the limited 
information we have about the leadership dynamics in Pyongyang. 
Plus the fact that the young leader has a habit of getting rid 
of some of his most senior advisors on a whim. I think it is 
just very difficult to speculate and calculate, assess what the 
post-Kim Jong-un political leadership may look like.
    Senator Murphy. Ambassador King, just an additional 
question. You have talked about the need for international 
pressure on human rights. But, you know, we know that the U.N. 
vote was not unanimous. Are there pivotal countries that have 
not stepped up and implemented the level of sanction or 
pressure that we would like to see to try to change the reality 
inside the DPRK? Are there countries that we should be talking 
to from--at a congressional level, about increasing their 
pressure that would be determinative, potentially, ultimately, 
on what happens inside North Korea? I mean, let us set China 
aside for a second. I mean, we know China, right?
    Ambassador King. There are a number of countries that I 
think I would like to see more positive on the human rights 
situation in North Korea. Many of these are countries that have 
a relationship with North Korea that extends back many years. 
And some of these are countries which have gone through their 
own democratic transition and, hence, ought to be pushing more. 
One of the things that we do, both in Geneva, in New York, and 
also in terms of meetings that I have here in Washington, is 
try to encourage other countries that we think are likely to go 
in the right direction to move that way. We have had some 
progress, and we are going to continue to do that.
    Senator Murphy. Well, to the extent you do not want to call 
them out publicly in an open hearing----
    Ambassador King. No, not really.
    Senator Murphy [continuing]. I think it would be helpful, 
through the chair and ranking member, to maybe point us in the 
right direction.
    Ambassador King. If I see you heading in the right 
direction with one country or another, I might come up and talk 
to you about it.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman [presiding]. Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    And thank you both for your career of service.
    Obviously, North Korea is a rogue regime. Admiral Harris, 
the PACOM commander--I had the privilege of meeting with him, 
back in August--talked about the seriousness of the North 
Korean situation and how unpredictable it is. They are 
definitely a rogue regime. They are developing programs of 
weapons of mass destruction in nuclear, biological, chemical 
weaponry. Their cyber warfare efforts are certainly known to us 
now after the Sony incident just last year. I am worried about 
their nuclear proliferation efforts with Iran, but also the 
human rights violations are untenable. Solzhenitsyn wrote a 
book a long time ago about his experience in the gulags of the 
Soviet Union, and yet what we have going on in Korea today in 
the 21st century, in 2015, is just unconscionable.
    Ambassador Kim, I would like to talk to you about North 
Korea's efforts with Iran and the proliferation. They have--we 
know that Iran has had people at each of the three tests, and 
North Korea is now talking about their fourth test. And yet, we 
had, just recently, a senior American official said, ``It is 
very possible that North Korea is now testing for two 
countries,'' implying that they are in direct cooperation with 
Iran. After the Iran deal--nuclear deal--I am very concerned 
about that proliferation effort. Can you speak to that and what 
we are doing about that as an administration?
    Ambassador Kim. Thank you very much, Senator.
    We have long been very concerned about North Korea's 
relations with Iran. We know that they have cooperated on 
various projects. And this is something that we monitor very 
closely. Obviously, we need to stay vigilant and make sure that 
such dealings are terminated.
    Senator Perdue. Well, how do we do that? I mean, we have 
got these sanction programs now that are being released. Iran 
has a lot of cash. With our sanctions on North Korea, North 
Korea needs cash. Are we monitoring that situation more closely 
now that we have signed the Iran deal?
    Ambassador Kim. Senator, our experts are monitoring that 
situation very, very closely, yes.
    Senator Perdue. Okay. Monitoring. Do you expect any change 
in current behavior?
    Ambassador Kim. Sir, I am--you know, I was not involved in 
the Iran deal, so I am not an expert, but I--my understanding 
is that Iran obviously has an interest in living up to the deal 
and following through in order for them to reap the benefits of 
any sanctions waiver.
    Senator Perdue. But, our sanctions on North Korea, of which 
I was speaking, are really not having much of an impact on 
their ability to ship technology. I mean, we just had North 
Korea expert, Bruce Bechtol, wrote, just earlier this year, 
``North Korea continues to supply technology, components, and 
even raw materials for Iran's highly enriched uranium 
weaponization program.'' So, it just--it baffles me that we are 
quite happy with the status quo, in terms of the effectiveness, 
or lack thereof, of our sanctions, relative to this 
proliferation--the partnership they seem to have with Iran.
    Ambassador Kim. Sir, I mean, I do not think anybody is 
happy with the state of--the situation with North Korea. 
Sanctions enforcement has improved, and we have had some 
successes, in terms of ship interdictions, which have made it 
more difficult for the North Koreans to proliferate. And I 
believe that applies to the Iran situation, as well.
    Senator Perdue. Thank you, Ambassador.
    Ambassador King, on this forced labor issue, you know, 
today it is hard to--you know, we have had hearings here about 
human slavery in the 21st century, with 27 million people 
enslaved around the world. The Database Center of North Korean 
Human Rights, NKDB, recently released a new report about North 
Korea's overseas efforts. This report paints an abysmal picture 
of the state of forced labor sent to work overseas by the Kim 
regime. Some 60,000 laborers overseas have been sent, earning 
somewhere between a billion and 2-and-a-half billion dollars on 
behalf of the state, in terms of hard currency, for North 
Korea. Can you speak to this policy? This is a policy that I am 
not sure many Americans are aware of, and what we are--as an 
administration, what are we doing?
    I mean, North Korea is a Tier 3--one of 23, I guess, Tier 3 
countries out there, probably the worst participant in this 
forced labor movement around the world. But, for hard currency, 
I continue to come back to the money flow. You know, we have 
got all these sanctions on North Korea, and yet they are 
seeking ways to get hard currency, and here is one way they are 
being very successful. Can you speak to that, please?
    Ambassador King. The NKDB data is somewhat suspect. And I 
can send you some information----
    Senator Perdue. Please.
    Ambassador King [continuing]. That suggests that $1 to $1.5 
billion is way too high.
    Senator Perdue. Okay.
    Ambassador King. There is concern about North Korean 
laborers who are working. There are indications--we do not have 
numbers--there are indications there are significant numbers of 
them in Russia, where they work in the lumber industry. There 
are workers in China, where they work in the textile industry.
    Senator Perdue. Are they forced? These are forced--are they 
prisoners or----
    Ambassador King. You know, forced, yes and no. I mean, this 
is not a situation where people are rounded up and told, ``You 
are going to work in the lumber camps in Russia.'' It is--
individuals are told they have an opportunity to go. Quite 
frankly, for most North Koreans, working abroad provides better 
living conditions than staying in North Korea. They are better 
fed. They are not paid as much as they would be if they were 
hired locally. They are not--but, they are better paid than if 
they stayed in North Korea. So, I mean, it is one of these 
kinds of things that--it is a signal of--an indication of the 
problems in North Korea that these kinds of things go on.
    We have raised the issue, and we are monitoring the issue, 
where countries that are allies of ours have North Korean 
laborers. We are very concerned about making sure they realize 
what they are doing. But, most of the laborers tend to be in 
places like Russia and China. Very few of them in Western 
countries.
    Senator Perdue. Do many of those workers ever make it back 
to North Korea?
    Ambassador King. From what we know, yes. They usually spend 
2 or 3 years abroad, and then they return.
    Senator Perdue. Is there any correlation between those 
workers and the camps, the detention camps inside North Korea?
    Ambassador King. Does not seem to be. People who are sent 
to the prison camps are not being sent abroad.
    Senator Perdue. Okay.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    Senator Kaine, I know, is returning in a just a moment from 
a vote. And, while we are waiting on him to get back----
    Have we--I know with Iran, obviously, we developed bunker-
busting capacity to deal with underground facilities they had--
have we, at any case--at any point, have we identified sites 
that we would be willing to militarily deal with if certain--if 
North Korea got to a certain point in their development? Have 
we publicly discussed that? Have we stated a policy, relative 
to us dealing with that?
    Ambassador Kim. Sir, I am not sure if I can really comment 
on this in this setting. Obviously, we are looking very closely 
at all of their nuclear facilities.
    The Chairman. Do we think we have a good understanding of 
where all those facilities are located?
    Ambassador Kim. I think we have a fair degree of confidence 
about all of their facilities.
    The Chairman. Do we know if any of them are in places like 
we found Fordow, for instance, to be, where it was under a 
mountain? Are these easily accessible with detonations, 
munitions?
    Ambassador Kim. It is a little difficult for me to comment 
on that in this setting, sir. I would be happy to have a more 
detailed discussion in a classified setting.
    The Chairman. Have we made any public pronouncements, 
though, or given any indications that if North Korea got to a 
point in their development, if we felt like they were 
miniaturizing, that we would take military actions against what 
they are doing there within the country?
    Ambassador Kim. Sir, I believe our senior officials have 
made clear that all options, including military options----
    The Chairman. Yes.
    Ambassador Kim [continuing]. Remain on the table.
    The Chairman. Yes.
    Ambassador Kim. But, I am not aware of any specific 
comments.
    The Chairman. Is it your sense that the administration 
would be committed to taking those types of activities if they 
felt like North Korea was getting to a point where they were 
becoming a threat?
    Ambassador Kim. Well, I think, as we discussed, they are 
already threat, but, I mean, I can only repeat what our senior 
officials have said, which is that all options do remain on the 
table.
    The Chairman. Well, when you say ``they are already a 
threat,'' I mean, one of the issues would be, Have they 
developed the ability to miniaturize? Are you saying that you 
think they have?
    Ambassador Kim. Well, sir, I cannot really comment on that 
in this setting. We do know that they have made advances.
    The Chairman. Yes.
    Ambassador Kim. But, beyond that, I would have to brief you 
in a classified setting.
    The Chairman. Well, I think we ought to set that up in the 
next short period of time. Thank you for that.
    As I said in my opening comments, we have had both sides of 
the aisle administrations who have made no progress on this 
issue, relative to their nuclear weaponry. Has there been any 
pushback, from your perspective within the administration, on 
policies going forward that might have an effect on them and 
cause them to slow the program that is underway? Have you 
sensed any pushback within the administration?
    Ambassador Kim. Sir, I mean, I think we are constantly 
looking for a stronger effort, in terms of both pressure and 
diplomatic coordination, to try to change the calculus in 
Pyongyang. And that really--that is an ongoing effort. I mean, 
for example, on sanctions, we will continue to look at all 
possible avenues on how we can increase pressure by both coming 
out with new unilateral sanctions, but also improving 
coordination on U.N. Security Council resolution sanctions. 
That is an ongoing effort. And this applies to the human rights 
area, as well. If we can make it more difficult for the North 
Koreans to earn foreign currency, put--conduct illicit 
activities, improve their capabilities, I think we should 
obviously pursue all such opportunities.
    I think, on the diplomatic front, as well, we want to make 
sure that at least the five parties are united so that the 
North Koreans are not able to play their familiar game of going 
to Beijing to get some concessions, going to Seoul to get some 
concessions, while they make no progress on the nuclear issue, 
missile issue, or human rights. And I think, on both fronts, 
this is a constant effort that we obviously need to intensify, 
because we are not seeing the kind of progress that we would 
like to see.
    The Chairman. Yes. So, there is not an issue of the 
administration having an unwillingness to deal with this issue, 
relative to sanctions. At this moment, there has been a lack of 
ability to identify those things that you think might have a 
greater effect than what is already occurring. Is that----
    Ambassador Kim. Definitely, there is no reluctance----
    The Chairman. Yes.
    Ambassador Kim [continuing]. On the part of the 
administration to explore----
    The Chairman. Yes.
    Ambassador Kim [continuing]. New sanctions, stronger 
sanctions, and better enforcement of sanctions----
    The Chairman. So, it would appear to me that all five 
parties are really not on the same page, and that China 
obviously does not appear to be on the same page that we are on 
and the other--South Korea and other countries are on, relative 
to these discussions.
    Ambassador Kim. Well, clearly, as we discussed, Mr. 
Chairman, China can do more, and----
    The Chairman. Yes.
    Ambassador Kim [continuing]. We are going to push them to 
do more, in terms of exercising their leverage on North Korea. 
But, I would say there is very strong five-party unity on the 
common goal of complete and irreversible denuclearization of 
the North Korean nuclear program. There is also very strong 
unity that North Korea needs to refrain from any actions that 
provoke--that destabilize the region and its neighbors.
    I think the coordination among the three parties--that is 
with our allies, Japan and South Korea--really has been very 
robust. I do not see any daylight between us and Seoul, and us 
and Tokyo. Even as they pursue their own channels of 
communication--in the case of South Korea, obviously they have 
an interest in dealing with inter-Korean----
    The Chairman. Yes.
    Ambassador Kim [continuing]. Issues. For example, this week 
they are conducting these family reunions that bring long lost 
families together from North and South.
    The Chairman. Yes.
    Ambassador Kim. Obviously, very important humanitarian 
initiative, and we support that, and we do not see that as 
undermining our common effort on the nuclear issue, on human 
rights, et cetera.
    In the case of Japan, they have a very strong interest in 
pursuing an--full accounting of the Japanese abducted citizens. 
So----
    The Chairman. Yes.
    Ambassador Kim [continuing]. Important human rights and 
humanitarian issue for the Japanese. And we support their 
efforts. And we do not see that as undermining our common goal 
or common stance on the nuclear issue.
    The Chairman. Yes.
    Ambassador Kim. I have to say, even with the Russians, you 
know, they have been very clear, publicly and privately, that 
they remain committed to the goals of the six-party process, 
and they do very strongly oppose any actions by the North 
Koreans in violation of U.N. Security Council resolutions.
    The Chairman. Is there a line that North Korea would cross, 
where you think China might want to intervene in a more kinetic 
way to keep them from getting nuclear weapons? Have you had any 
discussions with counterparts there? Is there a line that they 
might cross that would cause China to want to, in a forceful 
way, ensure they do not have the ability to deliver nuclear 
weapons inside China? I know that China does not perceive them, 
probably, as a threat in that way, but is there a line that 
they would cross that would cause China to act?
    Ambassador Kim. Sir, I think it is difficult to speculate. 
All I can say is that I do think it is important for us to 
remind the Chinese that their approach, their policies on North 
Korea will continue to hurt China's own interests. It will 
undermine China's efforts to grow its economy, which can be 
possible only if they live in a stable environment. And I think 
if the North Koreans continue to pursue dangerous capabilities 
and continue to conduct provocative actions, it works against 
China's own goals.
    The Chairman. My guess is that that advice is being heard 
about as much as them advising us on what we ought to do with 
Mexico and Canada.
    But, anyway, with that, Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. And thanks for calling 
this hearing. It is a very important one.
    And I came with many questions. And my colleagues have 
actually asked the questions I had when I walked in the room. I 
appreciate your testimony and your discussion. But, a question 
that came up as a result, Ambassador King, of your written 
testimony that you elaborated on a little bit in your, kind of, 
oral presentation--and I do not think the question was asked; 
forgive me if it was asked when I was gone--I want to go back 
to the U.N. action on the resolution that you discussed. So, 
let me just make sure I understand this.
    There was a resolution put before the U.N. to condemn North 
Korean human rights abuses. And I was trying to take notes 
quickly as you testified. The resolution received 100-and---
about 150 yes votes, 20 no votes, and there were 73 
abstentions. Now, are those--first, let me get--are those 
numbers right?
    Ambassador King. The numbers were 116 yes, 20 noes, 53 
abstentions.
    Senator Kaine. Okay, so it is 116 yes, 20 no, and 53 
abstentions. What exactly was the resolution?
    Ambassador King. This was a resolution that welcomed the 
report of the Commission of Inquiry which was very damning, in 
terms of North Korea's human rights situation. It called for 
referring the resolution to the Security Council for possible--
where the Security Council is asked to consider referring it to 
international judicial mechanisms. And very tough, very 
critical, on the North Koreans. North Koreans denounced the 
resolution. They spoke strongly against it.
    Senator Kaine. Was the report that was issued about North 
Korean human rights abuses--I mean, there is human rights 
challenges all around the world, but it was an unusually tough 
report against----
    Ambassador King. Yes.
    Senator Kaine [continuing]. The situation in North Korea. 
Are you aware of any other U.N. report that has been written 
about the activities of a sovereign nation that has been 
tougher on their human rights record than this recent U.N. 
report?
    Ambassador King. There are a lot of tough reports on human 
rights that have been written on individual countries. There 
are tough reports that have been written on more generic 
practices that involve more than one country.
    Senator Kaine. Let me ask you it a different way. And 
actually, I would like to ask you both this question. Are you 
aware of a sovereign nation, as opposed to a nonstate 
organization like ISIL or Boko Haram--are you aware of a 
sovereign nation in the world right now that has a worse 
documented human rights record than North Korea?
    Ambassador King. The Economist Intelligence Unit put 
together a system for ranking countries according to their 
human rights record. They ranked 167 countries from best to 
worst. North Korea came out number 167. We put them in the 
category of Countries of Particular Concern with religious 
freedom. They are Tier 3 countries with regard to trafficking. 
In all of the rankings--and we do not rank countries from top--
--
    Senator Kaine. Right.
    Ambassador King [continuing]. To bottom--but, all of the 
categories that we put bad actors in, the North Koreans appear 
there.
    Senator Kaine. And, Ambassador Kim, just from your 
professional experience in the State Department, a 
distinguished career, are you aware of a sovereign nation in 
the world right now that has a worse human rights record than 
North Korea?
    Ambassador Kim. Thank you, Senator.
    No, I am not aware of a sovereign country that has a worse 
human rights record, from my professional perspective.
    If I may add, from my personal perspective, as well, as 
someone who was born on the Korean Peninsula, and having 
benefited from South Korea's tremendous rise, not just 
economically, but its impressive democratic transformation, I 
have always felt a great deal of sadness and sorrow whenever I 
travel to North Korea, because it is very easy to see--even 
though we are operating in a very controlled environment when 
U.S. delegations travel to North Korea, it is very easy to see 
that North Koreans are suffering. So, if we, foreign 
delegations, can see that easily, I can only imagine just how 
much worse the situation must be for North Koreans living in 
North Korea outside of Pyongyang. So, and I feel very, you 
know, personal about this issue, and this is why I applaud 
Ambassador King's efforts to maintain pressure and momentum on 
this issue.
    Senator Kaine. My questions are really, in some ways, more 
about the character of the United Nations than they are--you 
know, hearing you describe--and, obviously, with this personal 
connection, the--the fact that, across so many different, you 
know, spectrums, whether you are talking about forced labor, 
whether you are talking about sexual violence, whether you are 
talking about repression of any freedom of information--North 
Korea, such a violator of basic principles of human rights. So, 
how are we to understand, after a very tough U.N. report--this 
is not a U.S. allegation, this is a U.N. significant 
investigation that is a report about the human rights situation 
in North Korea--that 20 nations would vote against a basic 
referral to the Security Council and 53 nations would abstain? 
What, 73 nations are unwilling to offer simple support for the 
notion of a referral of a human rights report that is as 
damaging as this--how are we to understand that in the context 
of the U.N. as a voice for the values that are the basic values 
of the charter under which it was established?
    Ambassador King. Defending the U.N. is not my normal 
portfolio, but let me say that one of the things I have spent a 
lot of time doing is dealing with U.N. organizations in the 6 
years that I have been in this position. I have been impressed 
with the commitment and willingness of countries to step 
forward on North Korea and to make the kind of comments and to 
vote the way they have. Most of the countries that have 
abstained--and there is a larger number than we would like to 
see--are countries that feel human rights should not be dealt 
with by focusing on an individual country. We ought to look at 
issues like gender rights, we ought to look at education 
opportunities, we ought to look at rights of children. Most of 
the countries that have problems like that have come through 
experiences that suggest that they are making progress, but 
they are not there yet. Overall, the fact that the United 
Nations condemned North Korea by a significant majority of its 
members puts North Korea in a very awkward situation. And it is 
the kind of situation--you do not like to vote against your 
colleagues when you have got a vote on the floor. If you have 
got a colleague who has got a bill you do not like, but happens 
to be a good friend, you know the problems you face. 
[Laughter.]
    Senator Kaine. Yes, but I tell you, I do know the problems 
that we all face, but the U.N. was formed around a set of 
principles. And I guess it is one thing to vote no. You 
indicated some of those who voted no were among the Who's Who 
of the worst human rights abusers----
    Ambassador King. Yes.
    Senator Kaine [continuing]. In the world. But, the notion 
that you would abstain, like, ``I am indifferent. I cannot make 
my mind up. I do not know whether any action is warranted''--I 
mean, that just seems like such an amazingly----
    Ambassador King. There are several of those countries that 
we are working on.
    Senator Kaine. Yes. Yes.
    And, Ambassador Kim, do you have a thought about that? I am 
not--because I am not an expert of the U.N. and what would be 
the norm in a situation like this, but I am--it just strikes me 
that if we cannot think of a worse example in the world, in 
terms of a human rights violator, a violator of the basic 
tenets of the U.N. Charter, if we cannot think of a worse 
example, but, even for the worst example, 73 nations out of, 
let us see, out of 189 that vote, are--refuse to condemn--or 
refuse to suggest a referral of a U.N. study cataloging human 
rights abuses, refuse to condemn it or suggest a referral to 
the Security Council--I mean, what--tell me--help me understand 
the U.N. dynamic.
    Ambassador Kim. Sir, I mean, I agree that it is unfortunate 
that we could not get all of the member states to vote for this 
resolution. I assume, for some of those countries, it is just a 
matter of indifference. I assume, for some of those countries, 
it is because they have their own human rights issues that they 
felt uncomfortable about condemning North Korea's human rights 
record.
    I think it is important to remember, however, that with the 
publication of the Commission of Inquiry report, and with all 
of the efforts that we made in the U.N. context, that we were 
able to raise awareness about the North Korean human rights 
issue, much more so last year than we had done--we were able to 
do in previous years. And I think this is an ongoing effort. We 
are going to continue to push this issue as an important agenda 
for the Security Council, and we are going to continue to work 
on--as Bob suggested--continue to work on those countries that 
really should be working with us on efforts against North 
Korean human rights violations, much more vigorously, so that 
when the vote takes place later this year, next year, et 
cetera, that we will begin to have much better numbers.
    Senator Kaine. Mr. Chair, I will conclude, and I appreciate 
you letting me have a little extra time. This is a little 
unusual, but I would like to ask that the Commission of Inquiry 
report be added----
    The Chairman. Entered into the----
    Senator Kaine [continuing]. To the record of this committee 
hearing, as well as the vote tally on the motion to refer to 
the Security Council.
    The Chairman. Without objection.

[Editor's note.--The two reports mentioned above was too 
voluminous to include in the printed hearing. They will be 
retained in the permanent record of the committee.]

    The Chairman. And I certainly appreciate the line of 
questioning. And thank you for signing the letter last week. I 
think we are also going to be able to see the nature of the 
U.N. when Iran violated, for the sixth time, the U.N. Security 
Council Resolution 1929. I will predict that the U.N. Security 
Council will take no action.
    So, I am glad that someone of your sensibilities is raising 
the kinds of questions you are asking. And hopefully the 
committee, in general, will focus a little bit on this entire 
issue, relative to the U.N., itself. And thank you for your 
testimony in that regard.
    Senator Cardin, I know, has a question.
    Senator Cardin. Thank you again for your testimony.
    Senator Cardin. Just follow up quickly on Senator Kaine's 
point. I have been involved in human rights issues for a long 
time in the Helsinki Commission. And I must tell you, if you do 
not name specific countries, you are not going to get anywhere. 
To say that almost the majority of countries in the United 
Nations believe we can handle human rights advancements in a 
generic sense by saying, ``We are for gender equality,'' or 
``We are for stopping trafficking,'' or ``We are for giving 
people the right to express themselves,'' but then you do not 
address the individual circumstances of states by naming them. 
Without that you are not going to get anywhere.
    So, I appreciate the fact that, in the last decade, we have 
made progress in the United Nations. But, there is still a 
long, long, long way to go.
    And I would just observe that I have been very impressed by 
your testimonies today, both of your testimonies, because you 
have linked the security issue with human rights continuously 
as we deal with North Korea. And I think that you really do 
understand the importance of both of those issues and how they 
are interrelated to the United States objectives in North Korea 
and that we need to continue to make it clear that there can be 
no normalization, as it relates to North Korea, until they deal 
with both the security issues and human rights issues, which 
are very much interwoven.
    I did want to ask one additional question, if I might. And 
that is, Ambassador Kim, you were engaged, in the 1990s, when 
we had the Framework Agreement with North Korea, and 
implementation of the Framework Agreement. Well, today we are 
implementing another Framework Agreement. We have passed the 
adoption date of the Iranian agreement, and we are now in that 
period where that agreement is being implemented. And I would 
just ask if you could share with us some of the lessons learned 
from North Korea as to how we can be more effective, 
particularly in the United States role, but also the 
congressional role, in how we implement the Iranian agreement, 
using the lessons learned by the Framework implementation for 
North Korea.
    Ambassador Kim. Thank you, Senator.
    Just to clarify, I was not directly involved in the Agreed 
Framework days--Agreed Framework effort. I am not that old. 
[Laughter.]
    Ambassador Kim. I was a very junior political officer 
assigned to our embassy in Kuala Lumpur. But, I was able to 
observe the implementation talks, which took place in Kuala 
Lumpur, Malaysia, so I have some experience.
    I think, more generally, one very important lesson that we 
took away from both the Agreed Framework effort and the six-
party process is the critical importance of verification. We 
should not trust the North Koreans to follow through on their 
commitments. And so, I think whatever effort we enter into next 
with North Korea, we need to focus very heavily on making sure 
that we have the most robust, most intrusive verification 
process possible with the North Korean nuclear program. And I 
think this is why my colleagues who worked on the Iran effort 
focused heavily on verification. And my understanding is that 
the Iran deal includes a very robust, unprecedented, 
verification process.
    Senator Cardin. Any other observations you would make? 
Verification, we understand, is critically important. And it 
was not--I take it, from way that you were describing it, it 
was not as specific as it needed to be in the North Korea 
framework of the 1990s. Any other lessons? Because, obviously, 
I agree with Senator Corker, and I said in my opening 
statement--this is not a reflection on any one administration; 
it goes back many administrations--we have not succeeded in our 
policies in North Korea.
    Ambassador Kim. Sir, one other sort of general observation 
I would make, based on my experiences dealing with North Korea, 
is that it is important to be comprehensive in scope, because 
if we are not very tight, in terms of making sure that we cover 
the entirety of their nuclear program, they will find ways to 
create loopholes. And so, I think we need to make sure--when we 
get started with any renewed negotiations, we need to make sure 
that the scope covers their whole nuclear program.
    Senator Cardin. And with Iran, we were focused only on the 
nuclear side. North Korea, the human rights issues are so 
interwoven. As I understand it, the regional partners want to 
make sure that we engage on more than just the nuclear aspects 
of North Korea. Is that a fair assessment?
    Ambassador Kim. Sir, I think that there is consensus that 
the human rights issue needs to be addressed. I think there is 
still sort of thinking going on about how best to do that. I 
mean, I think that we all agree that it should be addressed. 
But, whether it should be addressed within the framework of the 
six-party talks or not, I think is an open question, because 
the agreement in the six-party process is to focus on the 
nuclear issue.
    But, I agree with you completely that if and when we resume 
any serious engagement with North Korea, whether it is 
bilateral or multilateral, we need to make sure to focus on the 
human rights issue. I do not think we have the luxury, and 
frankly it would be irresponsible for us, to sort of cast aside 
human rights issues to focus only on other issues. I think we 
will have to address all of our concerns somewhat 
simultaneously.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Before I turn to Senator Gardner, just to 
follow up, you have no sense that there is some forcing event 
that is going to cause the six-party talks to start again and 
some agreement be reached with North Korea. I mean, there is no 
thinking that that is on the horizon, is there?
    Ambassador Kim. No, sir.
    The Chairman. Okay.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman. And again, thank 
you for holding this hearing. Thank you for your persistence 
today, as well.
    Does it--following up on the Chairman's question right 
there, moving away from six-party talks, since they have not--
we have not moved forward the six-party talks since, basically, 
2008--does it make sense to have five-party talks, without--to 
have five-party talks, without North Korea at the table, to 
talk about what we would be willing to do and how we can move 
forward without North Korea at the table if they are not 
willing to join?
    Ambassador Kim. Senator, thank you very much. That is a 
terrific question, and it is something that we have been very 
interested in pursuing.
    I think it would make a lot of sense for us to have a five-
party gathering in which all five of us at one time share notes 
and try to come up with a common strategy. I mean, I have to 
say, I think, as I mentioned earlier, we do have fairly strong 
unity among the five parties that was built through, sort of, 
more individual consultations, us with the other members of the 
six-party process. But, I do think it would be useful for us to 
try to organize a five-party gathering to coordinate our 
efforts.
    But, some of the parties have been cautious about, sort of, 
the signal that a five-party gathering would send. But, I 
sincerely believe that it would be quite useful.
    Senator Gardner. Now, the cautious parties, China in 
particular, or others?
    Ambassador Kim. I believe China and Russia have been 
cautious.
    Senator Gardner. Was this a conversation point during the 
summit with President Park here?
    Ambassador Kim. President Park and President Obama had an 
extensive discussion on North Korea-related issues, but I am 
not aware that that specifically mentioned the five-party 
talks.
    Senator Gardner. You mentioned the whole scope of the 
nuclear program and how, to be effective for a sanction regime, 
it has to be effective against the whole scope of the North 
Korean nuclear program. Do you believe that means that a more 
aggressive implementation of sanctions is required?
    Ambassador Kim. Oh, I do believe that we can improve. 
Sanctions enforcement can improve, both in terms of what our 
international partners do, but also for us to look at some new 
ways to strengthen the sanctions regime.
    Senator Gardner. Okay. How many sanctions have--how many 
entities have been sanctioned in the last 10 months by the 
United States in North Korea?
    Ambassador Kim. Well, when the President announced the new 
Executive order in January, following the Sony cyber attack, we 
designated about 13 entities and North Korean personnel. In 
July, the Treasury Department issued some more designations. I 
do not remember the exact number. But, it is an ongoing effort. 
We are continuing to review all available information to find 
targets, entities that are involved in illicit activities, 
personnel supporting North Korean regimes, dangerous 
activities, looking at various organizations to see whether 
they merit being on our designations list.
    Senator Gardner. So, 13 in January, about that number maybe 
in July.
    Ambassador Kim. Something like that.
    Senator Gardner. And what does that represent of the pool 
of sanctionable entities? What percentage does that represent?
    Ambassador Kim. Well, but many, many North Korean entities 
are already sanctioned. As you know, Senator, I mean, we have a 
whole range of sanctions against North Korea--various Executive 
orders, export control-related legislation. So, I mean, I do 
not have the exact number, but many, many North Korean entities 
are already----
    Senator Gardner. But, there are a number of others that 
could be action taken against, is that correct?
    Ambassador Kim.Kim. I am sorry?
    Senator Gardner. There could be others that action is taken 
against by the United States.
    Ambassador Kim. Yes. I think we are constantly reviewing 
all available information so that we can--when they meet the 
evidentiary requirement, as much as we would like to, I mean, I 
do not think we can just, you know, sanction anyone we do not 
like. I think they have to--our evidence needs to meet the 
requirements. But, when they do, we will not hesitate to make 
additional designations.
    Senator Gardner. Thank you.
    Mr. King, following up on the end of Senator Kaine's 
comments, you--I cannot remember--I apologize if it was 
Ambassador Kim or perhaps you who had said taking actions that, 
``makes them feel more uncomfortable in North Korea.'' And 
perhaps it was Ambassador Kim that had said that, as well. But, 
you did say persistence more than new ideas is important when 
it comes to, I believe, the human rights actions that we are 
pursuing. So, why have we not--and is it a good idea, perhaps, 
that we do--take this report, this Commission of Inquiry report 
2014, identify these actors, name them publicly, take sanctions 
actions against individuals that we name, in an effort to, 
indeed, make them feel more uncomfortable?
    Ambassador King. The President's Executive order that was 
issued, I think January 1 or 2, specified that sanctions could 
be imposed for human rights reasons. One of the things that we 
are looking at is, Can we identify individuals? One of the 
things that we have to do under our sanctions legislation is 
identify the individuals that are involved, for example. One of 
the things the North Koreans do is make a very careful point of 
not identifying those individuals. On the only trip I made to 
North Korea since I have been in this position, we had some 
discussions about the possibility of humanitarian assistance 
that did not go anywhere. But, at the end of the visit that I 
made, there was an American citizen who had been held there for 
7 months in prison and was given to me as a going away present. 
The one thing that was interesting was the process they went 
through as they handed him over to me. He was being held in a 
hospital. I went to the hospital. I was met by a man from the 
``relevant agency.'' And that is all the identification that we 
had--that he was from the relevant agency. He did not introduce 
himself. He was wearing a uniform, but the uniform had no 
insignia. Most uniforms have a name strip. No name strip. We 
completed this little kabuki exercise, where he made comments, 
I made comments, the prisoner made comments, we all shook 
hands. I never found out who the guy was, where he was from. 
And that is the way the agencies work over there. When you are 
involved in these kind of things, it is very hard to find out 
who the people are that are involved. We try. And we are 
looking at ways that we can get that information so that we can 
look at carrying out human rights sanctions.
    Senator Gardner. So, has--so, no one has been named under 
the executive order from January.
    Ambassador King. In terms of--named for human rights----
    Senator Gardner. Yes.
    Ambassador King [continuing]. Sanctions, no.
    Senator Gardner. And so, do we know of anyone--we certainly 
know at least some, correct?--that are responsible? Have they--
--
    Ambassador King. We are looking at what we can do and how 
we might be able to implement that, yes.
    Senator Gardner. And we know the United Nations has 
individual names. Is that correct?
    Ambassador King. No. The United Nations----
    Senator Gardner. They have no one----
    Ambassador King [continuing]. Does not.
    Senator Gardner. The United Nations has no one.
    Ambassador King. The U.N. Commission of Inquiry had largely 
the same kind of information that we have.
    Senator Gardner. Okay. So, have we--of those individuals 
that we have identified, whether it is 1, whether it is 10, 
whether it is 100--none of them have been acted upon.
    Ambassador King. It is a process that we have to go 
through, and we are going through it.
    Senator Gardner. How long will that process take?
    Ambassador King. I do not make the decisions. This is one 
that has----
    Senator Gardner. Who makes----
    Ambassador King [continuing]. To be worked through----
    Senator Gardner. Who makes the----
    Ambassador King [continuing]. Treasury.
    Senator Gardner. Treasury makes----
    Ambassador King. It is basically a question of working 
through Treasury. It is also a question of working through the 
intelligence agencies, as well.
    Senator Gardner. What about--I mean, what--Kim Jung-un 
himself? Has he been named under the executive order?
    Ambassador King. I do not know that he has been named--no.
    Senator Gardner. Mr. Chairman, thank you.
    The Chairman. Well, I think it has been a very good 
hearing, and it is a result of your efforts and Senator 
Menendez's efforts and others, relative to this issue. And I 
think, if it is okay with you, Senator Cardin, I know that Mr. 
Kim referenced some things that he would like to talk about in 
a different kind of setting. Seems to me it might be useful to 
us to have a classified briefing and bring in others, also, 
just to identify exactly where the North Korean nuclear 
development activity is, and how far along it is. And so, if it 
is okay, we will set that up and then look forward to further 
discussions about legislation.
    We thank you both for your professional leadership and for 
serving our country in the way that you do. And we look forward 
to working with you more closely on this issue. Thank you both 
for being here.
    Without objection, the record will remain open until the 
close of business Monday. And if you guys would promptly 
respond to questions asked, we would appreciate it.
    And again, thank you.
    And the meeting is adjourned.
    [Whereupon, at 11:58 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record

         [From the United Nations Press Release, Feb. 17, 2014]

        North Korea: U.N. Commission documents wide-ranging and 
         ongoing crimes against humanity, urges referral to ICC

    GENEVA (17 February 2014)--A wide array of crimes against humanity, 
arising from ``policies established at the highest level of State,'' 
have been committed and continue to take place in the Democratic 
People's Republic of Korea, according to a U.N. report released Monday, 
which also calls for urgent action by the international community to 
address the human rights situation in the country, including referral 
to the International Criminal Court.
    In a 400-page set of linked reports and supporting documents, based 
on first-hand testimony from victims and witnesses, the U.N. Commission 
of Inquiry on human rights in the DPRK has documented in great detail 
the ``unspeakable atrocities'' committed in the country.
    ``The gravity, scale and nature of these violations reveal a State 
that does not have any parallel in the contemporary world,'' the 
Commission--established by the Human Rights Council in March 2013--says 
in a report that is unprecedented in scope.
    ``These crimes against humanity entail extermination, murder, 
enslavement, torture, imprisonment, rape, forced abortions and other 
sexual violence, persecution on political, religious, racial and gender 
grounds, the forcible transfer of populations, the enforced 
disappearance of persons and the inhumane act of knowingly causing 
prolonged starvation,'' the report says, adding that ``Crimes against 
humanity are ongoing in the Democratic People's Republic of Korea 
because the policies, institutions and patterns of impunity that lie at 
their heart remain in place.''
    The second more detailed section of the report cites evidence 
provided by individual victims and witnesses, including the harrowing 
treatment meted out to political prisoners, some of whom said they 
would catch snakes and mice to feed malnourished babies. Others told of 
watching family members being murdered in prison camps, and of 
defenceless inmates being used for martial arts practice.
    ``The fact that the Democratic People's Republic of Korea . . . has 
for decades pursued policies involving crimes that shock the conscience 
of humanity raises questions about the inadequacy of the response of 
the international community,'' the report stated. ``The international 
community must accept its responsibility to protect the people of the 
Democratic People's Republic of Korea from crimes against humanity, 
because the Government of the DPRK has manifestly failed to do so.''
    The Commission found that the DPRK ``displays many attributes of a 
totalitarian State.''
    ``There is an almost complete denial of the right to freedom of 
thought, conscience and religion, as well as of the rights to freedom 
of opinion, expression, information and association,'' the report says, 
adding that propaganda is used by the State to manufacture absolute 
obedience to the Supreme Leader and to incite nationalistic hatred 
toward some other States and their nationals.
    State surveillance permeates private lives and virtually no 
expression critical of the political system goes undetected--or 
unpunished.
    ``The key to the political system is the vast political and 
security apparatus that strategically uses surveillance, coercion, fear 
and punishment to preclude the expression of any dissent. Public 
executions and enforced disappearance to political prison camps serve 
as the ultimate means to terrorise the population into submission,'' 
the report states.
    ``The unspeakable atrocities that are being committed against 
inmates of the kwanliso political prison camps resemble the horrors of 
camps that totalitarian States established during the twentieth 
century. The institutions and officials involved are not held 
accountable. Impunity reigns.''
    It is estimated that between 80,000 and 120,000 political prisoners 
are currently detained in four large political prison camps, where 
deliberate starvation has been used as a means of control and 
punishment. Gross violations are also being committed in the ordinary 
prison system, according to the Commission's findings.
    The report noted that the DPRK consists of a rigidly stratified 
society with entrenched patterns of discrimination. Discrimination is 
rooted in the songbun system, which classifies people on the basis of 
State-assigned social class and birth, and also includes consideration 
of political opinions and religion, and determines where they live, 
work, study and even whom they may marry.
    Violations of the freedom of movement and residence are also 
heavily driven by discrimination based on songbun. Those considered 
politically loyal to the leadership can live and work in favourable 
locations, such as Pyongyang. Others are relegated to a lower status. 
For example, the distribution of food has prioritised those deemed 
useful to the survival of the current political system at the expense 
of others who are ``expendable.''
    ``Confiscation and dispossession of food from those in need, and 
the provision of food to other groups, follow this logic,'' the report 
notes, adding that ``the State has consistently failed in its 
obligation to use the maximum of its available resources to feed those 
who are hungry.''
    Military spending--predominantly on hardware and the development of 
weapons systems and the nuclear programme--has always been prioritised, 
even during periods of mass starvation, the report says. The State also 
maintains a system of inefficient economic production and 
discriminatory resource allocation that inevitably produces more 
avoidable starvation among its citizens.
    Violations of the rights to food and to freedom of movement have 
resulted in women and girls becoming vulnerable to trafficking and 
forced sex work outside the DPRK. Many take the risk of fleeing, mainly 
to China, despite the high chance that they will be apprehended and 
forcibly repatriated, then subjected to persecution, torture, prolonged 
arbitrary detention and, in some cases sexual violence. ``Repatriated 
women who are pregnant are regularly subjected to forced abortions, and 
babies born to repatriated women are often killed,'' the report states.
    The Commission urged all States to respect the principle of non-
refoulement (i.e. not to forcibly return refugees to their home 
country) and to adopt a victim-centric and human rights-based approach 
to trafficking, including by providing victims with the right to stay 
in the country and access to legal protection and basic services.
    ``Crimes against humanity have been, and are being, committed 
against starving populations. These crimes are sourced in decisions and 
policies violating the universal human right to food. They were taken 
for purposes of sustaining the present political system, in full 
awareness that they would exacerbate starvation and contribute to 
related deaths.''
    The Commission also found that, since 1950, the ``State's violence 
has been externalized through State-sponsored abductions and enforced 
disappearances of people from other nations. These international 
enforced disappearances are unique in their intensity, scale and 
nature.''
    While the Government did not respond to the Commission's requests 
for access to DPRK and for information, the Commission obtained first-
hand testimony through public hearings with about 80 witnesses in 
Seoul, Tokyo, London, and Washington, DC, and more than 240 
confidential interviews with victims and other witnesses, including in 
Bangkok. Eighty formal submissions were also received from different 
entities.
    The report includes a letter sent by the Commissioners to the 
Supreme Leader, Kim Jong-un, containing a summary of their most serious 
findings, in particular the fact that ``in many instances'' the 
systematic, widespread and gross human rights violations ``entail 
crimes against humanity,'' and drawing attention to the principles of 
command and superior responsibility under international criminal law 
according to which military commanders and civilian superiors can incur 
personal criminal responsibility for failing to prevent and repress 
crimes against humanity committed by persons under their effective 
control.
    In the letter to Kim Jong-un, the Commissioners stated that it 
would recommend referral of the situation in the DPRK to the 
International Criminal Court ``to render accountable all those, 
including possibly yourself, who may be responsible for the crimes 
against humanity referred to in this letter and in the Commission's 
report.''
    Among wide-ranging recommendations to the DPRK, to China and other 
States, and to the international community, the Commission calls on the 
Security Council to adopt targeted sanctions against those who appear 
to be most responsible for crimes against humanity, stressing that 
sanctions should not be targeted against the population or the economy 
as a whole.
                                 ______
                                 

Written Statement of Michael Kirby, Chair of the Commission of Inquiry 
  on Human Rights in the Democratic People's Republic of Korea to the 
    25th Session of the Human Rights Council, Geneva, 17 March 2014

    President, High Commissioner, distinguished members of the Human 
Rights Council, Excellencies, ladies and gentlemen, last century, the 
world was faced with the Nazi ideology that sought to relegate people 
to the condition of lesser beings. It used terror, discrimination, and 
extermination in concentration camps to achieve its ends. It deployed 
totalitarian control to silence its critics.
    The world said ``never again.'' It proclaimed the Charter of the 
United Nations. It declared universal human rights as our shared 
destiny.
    Thereafter for almost 50 years, another terrible scourge of 
humanity reigned in South Africa: apartheid, the system of racial 
segregation under which the rights of the majority were curtailed and 
those of the minority maintained. When it fell, the world said never 
again.
    In the 20th century, the conscience of the world was shocked again 
by the cruelty of the Khmer Rouge. They arbitrarily executed and 
tortured those perceived as subversive elements. They starved their 
population in the name of self-sufficiency. Virtually no one was 
untouched. When the killing fields were discovered, the world said 
never again.
    Here we are in the 21st century. And yet we are faced with a 
remaining and shameful scourge that afflicts the world today. We can no 
longer afford to remain oblivious to it, nor impotent to act against 
it.
    The Commission of Inquiry has found systematic, widespread and 
grave human rights violations occurring in the Democratic People's 
Republic of Korea. It has also found a disturbing array of crimes 
against humanity. These crimes are committed against inmates of 
political and other prison camps; against starving populations; against 
religious believers; against persons who try to flee the country--
including those forcibly repatriated by China.
    These crimes arise from policies established at the highest level 
of the State. They have been committed, and continue to take place in 
the Democratic People's Republic of Korea, because the policies, 
institutions and patterns of impunity that lie at their heart remain in 
place.
    The gravity, scale, duration and nature of the unspeakable 
atrocities committed in the country reveal a totalitarian State that 
does not have any parallel in the contemporary world.
    These are the ongoing crimes against humanity happening in the 
Democratic People's Republic of Korea, which our generation must tackle 
urgently and collectively. The rest of the world has ignored the 
evidence for too long. Now there is no excuse, because now we know. In 
today's world, billions of people have direct access to the horrifying 
evidence.
    Last month--when the report was made available online--it received 
broad media coverage. But the findings of the Commission were not 
available to the people in the Democratic People's Republic of Korea.
    What is important is how the international community now acts on 
the report. What is most important is immediate action to improve the 
lives, and fulfill the human rights, of the ordinary citizens of the 
DPRK. A compelling report and wide media coverage are good. But they 
are woefully insufficient.
    Satellite images show the Democratic People's Republic of Korea, at 
night, immersed in darkness in stark contrast to the blazing lights of 
its neighbours. This visual impression epitomises the accounts conveyed 
to the Commission by the brave witnesses who came before it. Their 
country is a dark abyss where the human rights, the dignity and the 
humanity of the people are controlled, denied, and ultimately 
annihilated.
    The DPRK called the resolution this Council passed without vote to 
establish the Commission ``a political chicanery which does not deserve 
even a passing note.'' The Commission's findings have been 
characterized by the DPRK as ``sheer lies and fabrications deliberately 
cooked up.'' We have been accused of ``politicising human rights.'' We 
are labelled as ``marionettes of the string pullers.'' The release of 
the report has been described as a ``politically motivated provocation 
aimed to tarnish the image of the dignified DPRK and ramp up pressure 
on it in a bid to bring down its social system.''
    The Commission does not ask anyone to believe blindly what we say.
    Read for yourself the words from the testimony of hundreds of 
witnesses who spoke to the Commission of extermination, murder, 
enslavement, torture, imprisonment, rape, forced abortions, and other 
sexual violence. Their testimony is not only in the documents before 
you. The authentic voices of victims, families and experts who 
participated in the Commission's public hearings are on the Internet--
the same Internet that billions on our planet now use, but access to 
which is denied to the ordinary people of the DPRK. Ask yourself, why 
this regime forbids such access? Why does it punish its citizens for 
watching harmless soap operas from abroad? Why does it restrict radio 
and television sets to government controlled stations?
    Listen and watch for yourself the public hearing witnesses who 
spoke about the state sponsored discrimination and classification of 
people; persecution on political, religious, racial and gender grounds; 
the forcible transfer of populations; the enforced disappearance of 
persons; human trafficking, forced abortion and the murder of children; 
and the denial of food and needless death by starvation.
    Make up your own mind on what could be the truth and what could be 
fabrication. Freedoms of thought and conscience are rights that many of 
us take for granted. But they are forbidden in the Democratic People's 
Republic of Korea.
    If letting victims raise their voices is politicising human rights, 
how then can we help these victims?
    If the Human Rights Council is not the place to speak up about the 
atrocities that we have been told of, or to speak about accountability, 
then where is the venue? Is there any venue? Or is the world to 
continue to look the other way?
    If the International Criminal Court is not the place where crimes 
against humanity are to be addressed, then where do we seek 
accountability for these wrongdoings?
    We have been told to use dialogue, to avoid confrontation, and to 
employ cooperation. We have even been criticised for failing to go to 
the DPRK and engage with its people. All of our efforts to initiate 
dialogue and to offer cooperation have been spurned by the Democratic 
People's Republic of Korea, even up to this month when we reached out 
yet again to the DPRK and offered to come without preconditions and 
brief their Geneva Mission. Our offer to go to Pyongyang and answer 
questions has been ignored. All contact has been rebuffed.
    The DPRK claims that the establishment of a country-based mechanism 
is political confrontation. Does the same argument then apply to the 
Human Rights Council's Universal Periodic Review, where the DPRK has 
not accepted a single recommendation? It has been said that country-
mandated Special Procedures are a provocation. So can the same then be 
said of the thematic-mandated Special Procedures that have not been 
invited, nor permitted to visit, the country in the last 20 years? For 
a place where human rights are said to be perfect, this is a country 
that is strangely unwilling to reveal itself to others.
    Members of the United Nations: The Commission of Inquiry challenges 
you to address, with no further delay, the suffering of millions of 
North Koreans. They have been in the forefront of our minds this past 
year. Think of them. And act.
    Authorities of the Democratic People's Republic of Korea: The 
Commission of Inquiry challenges you to respect the human rights of 
your citizens.
    If you claim that only through dialogue and cooperation the crimes 
that we have uncovered and the gross human rights violations that we 
have brought to light can be addressed, then start that dialogue now. 
Commence that cooperation immediately.
    Commit yourselves to an open and honest exchange today in this 
forum, during this session. Dismissal of our report and of its findings 
by the DPRK should no longer be accepted by the Council as a sufficient 
response to allegations of such egregious violations and serious 
crimes. Now you have a comprehensive report. And, through our report, 
the victims of great wrongs now speak directly to this Council and to 
the world.
    Show good will. Immediately release, without condition, the tens of 
thousands of your citizens who are convicted of offences that were 
political in nature. Those who did not receive a fair trial. Those who 
were tortured. Demonstrate cooperation by allowing independent monitors 
to check and verify that no one in detention is harmed or tortured, or 
kept incommunicado.
    Abolish immediately and completely the discriminatory Songbun 
system, an apartheid of social class.
    Prioritize the fight against hunger and malnutrition with all 
available resources over propaganda and personal glorification. Wind 
back the gross overspending on the fourth largest army on the planet in 
favour of food for the people. Allow humanitarian assistance in 
accordance with humanitarian and human rights principles.
    Engage in dialogue by disclosing the whereabouts of those who have 
been forcibly abducted from Japan, the Republic of Korea, and other 
countries.
    Allow separated families to communicate with each other through 
mail and telephone and to permanently reunite. Everyday. Any hour. Not 
just a very few in a year, for just a few hours, won by lottery ballot 
amongst tearful Koreans grateful for such crumbs. These are human 
beings--many of them in their twilight years. They are not political 
pawns to be used for bargaining and negotiation.
    The findings of the Commission are hard to hear, but truthful.
    Our conclusions are heavy, but inevitable.
    The recommendations are challenging, but unavoidable.
    These are the only recommendations that we could possibly arrive at 
following the horrendous but credible accounts that we have heard these 
past months. They are the recommendations that our conscience requires 
us to put forth to you, to address the kind of atrocities that we have 
encountered through the evidence of those who have suffered. Plain 
speaking of their suffering requires me to say that it has been caused, 
in part, by the indifference of the international community.
    We have not made these recommendations lightly, fully aware of the 
weight of our words, and the gravity of our assessments. Nothing in our 
past lives could have prepared us for what we heard. Our duty is to 
report to the world the evidence we found. If this report does not give 
rise to action, it is difficult to imagine what will.
    The Commission urges the Democratic People's Republic of Korea to 
immediately and unconditionally accept and implement all of the 
recommendations contained in this report.
    The Commission urges all countries, including China, to respect the 
principle of nonrefoulement, and, accordingly, to abstain from forcibly 
repatriating any persons to the Democratic People's Republic of Korea, 
given the fearful evidence that we have heard and recorded. There 
should be no forced return to DPRK by any State unless the treatment in 
DPRK, as verified by international human rights monitors, markedly 
improves. Asylum and other means of durable protection should be 
extended to persons fleeing the Democratic People's Republic of Korea 
who need international protection. The victims of trafficking should be 
given appropriate remedy.
    The Commission urges the members of the United Nations and the 
international community, to accept their responsibility to protect and 
to implement all the recommendations contained in our report addressed 
to them: especially those related to accountability, including the 
referral of the situation of the Democratic People's Republic of Korea 
to the International Criminal Court.
    The recommendations of the Commission were formulated to be 
addressed immediately, in the medium and in the long term. Even those 
recommendations that require more time to be implemented demand 
attention and action to start now, immediately.
    The Commission has completed its work within time and faithfully. 
We have discharged the mandate given to us by this Council. We have 
done so with integrity, impartiality, and professionalism. You asked us 
to identify any human rights abuses and crimes against humanity. We 
have answered those questions with evidence. You asked us how those 
responsible might be rendered accountable. We have answered that 
question with the available options. And with long- and short-term 
actions to rebuild person-to-person contacts in Korea. We have 
fulfilled our function. It is now up to the Member States of the United 
Nations to fulfill theirs. The world is now better informed about 
Korea. It is watching. It will judge us by our response. This 
Commission's recommendations should not sit on the shelf. Contending 
with the scourges of Nazism, apartheid, the Khmer Rouge and other 
affronts required courage by great nations and ordinary human beings 
alike. It is now your duty to address the scourge of human rights 
violations and crimes against humanity in the Democratic People's 
Republic of Korea.
                                 ______
                                 

             Responses of Ambassador Sung Kim to Questions 
                    Submitted by Senator Marco Rubio

    Question. Will the U.S. Government press in the United Nations 
Security Council to hold another debate on North Korea's human rights 
situation this year--for instance, in December, when the United States 
is President of the council?

    Answer. We are deeply concerned about the suffering of North 
Koreans, and we continue to work closely with the international 
community to sustain international attention on the deplorable human 
rights situation in North Korea and seek ways to advance accountability 
for serious human rights violations in the DPRK.
    Last year, we worked hard with our partners to ensure the addition 
of the situation in North Korea onto the Security Council's agenda and 
were successful in holding the first-ever formal discussion by the 
Council, on December 22, 2014, of the grave human rights situation in 
North Korea. This was a significant step forward and reflected the 
concern of the international community regarding the appalling human 
rights violations being committed by the DPRK regime. At the session, 
in which senior U.N. officials briefed Council members, U.S. Ambassador 
to the U.N., Samantha Power, noted that the meeting reflected ``the 
growing consensus among Council members and States Members of the 
United Nations that the widespread and systematic human rights 
violations being committed by the North Korean Government are not only 
deplorable in their own right, but also pose a threat to international 
peace and security.'' We have made clear our view that the Council must 
come back regularly to speak about the DPRK. Working with partners, we 
will press to create future opportunities for such dialogue at the 
Council.
    During such a session we would continue to urge the DPRK to take 
action to remedy the violations identified in the U.N. Commission of 
Inquiry report, which was requested through a Human Rights Council 
resolution, including immediately closing the prison camps and 
releasing all political prisoners unconditionally, providing for 
greater freedom for all North Koreans, and allowing independent human 
rights monitors to observe conditions in the country. As we have done 
in the past, we would again urge the DPRK to engage directly with the 
U.N. Office of the High Commissioner for Human Rights, Special 
Rapporteur Darusman, and thematic special rapporteurs on how to fulfill 
its international human rights obligations and commitments. And we 
would call on the Security Council to continue to monitor the situation 
in the DPRK.
                                 ______
                                 

             Responses of Ambassador Sung Kim to Questions 
                   Submitted by Senator David Perdue

    Question. Is this regime, in your view, willing to give up its 
nuclear capabilities? Do you believe it is possible to achieve complete 
denuclearization of North Korea without regime change?

    Answer. The DPRK committed in the September 2005 Joint Statement of 
the Six-Party Talks to abandon all its nuclear weapons and existing 
nuclear programs. The paramount goal of U.S. policy on North Korea has 
been and remains the complete, verifiable, and irreversible 
denuclearization of the Korean Peninsula in a peaceful manner. 
Ultimately, the only practical solution is a diplomatic one. And we 
believe the most realistic way to go about achieving that is through a 
policy of changing the regime's thinking by making clear that there is 
a real alternative available to North Korea and by continuing to 
implement and enhance our comprehensive policy of diplomacy, pressure, 
and deterrence.
    President Obama has said--and Secretary Kerry has underscored--that 
North Korea has a choice. North Korea can end its international 
isolation and will create opportunities for prosperity for its people. 
But to avail itself of those opportunities, North Korea must first 
demonstrate its commitment to take steps to come into compliance with 
international obligations. We remain open to authentic and credible 
negotiations, but the onus is on North Korea to take meaningful actions 
toward denuclearization.

    Question. How can we more effectively use diplomatic, economic, and 
nonproliferation tools to deter further North Korean provocations?

    Answer. We remain deeply concerned about North Korea's ongoing 
actions in violation of U.N. Security Council Resolutions and its 
commission of systematic and widespread human rights violations, and we 
encourage our allies and partners to continue to work with us to 
address these provocative, destabilizing, and repressive actions and 
policies of North Korea.
    The State Department shares Congress' focus on enhancing pressure 
on the DPRK and countering the threat to global security posed by the 
DPRK's illicit programs and activities. We have important tools to 
strengthen that effort, particularly the broad and powerful new 
Executive order the President issued in January. The State Department, 
along with our U.S. Government and international partners, continually 
seeks the most effective means to impede the growth of the DPRK's WMD 
and ballistic missile programs, reduce the resources earned through its 
proliferation activities, and hold the regime accountable for its 
provocative, destabilizing, and repressive policies and actions.
    For these efforts to be effective, international cooperation is 
key. We are working closely with the U.N. Security Council's DPRK 
sanctions committee and its Panel of Experts, like-minded partners, and 
others around the globe to harmonize our sanctions programs and to 
ensure the full and transparent implementation of UNSCRs 1718, 1874, 
2087, and 2094. As a result, we have seen greater actions taken by 
member states to prevent illicit North Korea trade in arms, WMD-related 
material, and luxury goods--most notably with the seizure by Panama of 
a substantial amount of military gear on the North Korean ship Chong 
Chon Gang.
    We have also expanded outreach to countries that have diplomatic or 
trade relations with North Korea to press them not to engage in illicit 
activities banned by U.N. resolutions or targeted by U.S. sanctions. We 
maintain regular contact and consultations with our allies and partners 
to counter--whether through persuasion or pressure--the threat to 
global security posed by the DPRK's nuclear and ballistic missile 
programs.
    In particular we remain actively engaged with partners, including 
China and Russia, at a variety of levels on the importance of enhancing 
pressure on Pyongyang. The North Korean nuclear issue, for instance, 
was a major topic of discussion during President Xi's visit to 
Washington.
    Finally, we remain fully prepared to deter, defend against, and 
respond to the threat posed by North Korea, and we are steadfast in our 
commitment to the defense of the American people, our allies, and our 
interests in the region.

    Question. Can you inform me of the State Department's current 
efforts to halt this sharing of nuclear technology between North Korea 
and Iran? What more can be done?

    Answer. The United States continues to work closely with the 
international community and our partners to address the global security 
and proliferation threat posed by the DPRK's nuclear and ballistic 
missile programs, including the activities outlined in the Director of 
National Intelligence Clapper's 2015 Worldwide Threat Assessment. The 
United States constantly monitors all available information on the 
DPRK's dealings related to its WMD programs and its proliferation 
activities worldwide. We also continue to monitor closely any efforts 
by Iran to acquire proliferation sensitive technology.
    U.N. Security Council Resolutions 1718, 1874, and 2094 prohibit the 
transfer to, or from, the DPRK of goods, technology or assistance 
related to nuclear, ballistic missile, or other weapons of mass 
destruction-related programs. In addition, UNSCR 2231 (2015) prohibits 
the sale, supply, or transfer to, or from, Iran of ballistic missiles 
and related items for up to 8 years and imposes tight restrictions on 
Iran's ability to acquire nuclear-related items through an UNSC-
supervised procurement channel.
    The United States continues to take concerted efforts, both 
nationally and multilaterally, to enhance the full and transparent 
implementation of sanctions, including the full suite of U.S. 
unilateral sanctions measures and all relevant U.S. U.N. Security 
Council resolutions concerning the DPRK and Iran.

    Question. As North Korea remains strapped for cash due to 
sanctions, do you expect to see more efforts to sell nuclear technology 
and material?

    Answer. Strong enforcement of existing sanctions is the key to 
preventing prohibited North Korean trade in arms and WMD-related 
material, and limiting North Korea's ability to profit from its 
prohibited activities. The United States continues to work to 
strengthen sanctions enforcement, both through national measures and in 
the U.N. context.
    The United States has actively supported efforts by the UNSC DPRK 
Sanctions Committee and its Panel of Experts to improve implementation 
of the provisions of U.N. Security Council Resolutions 1718 (2006), 
1874 (2009), 2087 (2013), and 2094 (2013). The work of the Sanctions 
Committee and the Panel of Experts has contributed positively to 
stronger sanctions enforcement. In recent years, we have seen greater 
actions taken by member states to enforce U.N. sanctions, most notably 
with the seizure by Panama of a substantial amount of military materiel 
on the North Korean ship Chong Chon Gang. The Panel's annual reports 
have documented these actions in greater detail.
    We have engaged countries across Southeast Asia, Africa, and the 
Middle East that have been targeted by North Korea for proliferation-
related transport and sales, reminding them of their obligation to 
implement U.N. sanctions and working to strengthen their capacity to do 
so.
    As we work to increase sanctions pressure, we continue to emphasize 
to North Korea that the road to a brighter future remains open. Only by 
abandoning its nuclear weapons and ballistic missile programs, abiding 
by its international obligations and commitments, and addressing the 
concerns of the international community can North Korea achieve the 
prosperity and security it seeks.

    Question. What tools do we have to change China's calculus when it 
comes to Beijing's approach to Pyongyang?

    Answer. China has unique leverage, and we will continue to urge 
China to do more until we see concrete signs that DPRK leaders have 
come to the realization that the only viable path is denuclearization. 
China and the United States agree on the fundamental importance of a 
denuclearized North Korea; President Obama and President Xi reiterated 
this publicly during President Xi's visit to Washington in September. 
In recent years, North Korea's continued bad behavior and refusal to 
take concrete steps toward denuclearization may be leading China to 
reassess its North Korea policy. More can be done and more needs to be 
done, however.
    We remain actively engaged with China at a variety of levels on the 
importance of enhancing pressure on Pyongyang. Both sides agree that 
pressure must be an important part of our overall approach on North 
Korea, and China has repeatedly expressed its commitment to 
implementing U.N. Security Council resolutions. We expect our 
engagement on these issues to continue.

    Question. How can the U.S. improve implementation and enforcement 
of North Korea sanctions, including U.N. sanctions? Are there loopholes 
that need to be closed?

    Answer. The United States continues to take steps to strengthen and 
bolster the existing sanctions regime, both through national measures 
and in the U.N. context.
    The United States has actively supported efforts by the U.N. 
Security Council DPRK Sanctions Committee and its Panel of Experts to 
improve implementation of the provisions of U.N. Security Council 
Resolutions 1718 (2006), 1874 (2009), 2087 (2013), and 2094 (2013).
    The work of the Sanctions Committee and the Panel of Experts has 
contributed positively to stronger sanctions enforcement. In recent 
years, we have seen greater actions taken by member states to prevent 
prohibited North Korean trade in arms, WMD-related material, and luxury 
goods--most notably with the seizure by Panama of a substantial amount 
of military materiel on the North Korean ship Chong Chon Gang.
    This, in turn, led to the Sanctions Committee's designating the 
major DPRK shipping company involved in the Chong Chon Gang incident 
for a global asset freeze, strengthening global efforts to combat the 
DPRK's maritime weapons proliferation.
    The Panel's annual reports have documented in further detail the 
numerous actions that States have taken to enforce U.N. sanctions. U.N. 
sanctions are limiting North Korea's ability to profit from its 
prohibited activities and limiting the resources it has to invest in 
its nuclear and ballistic missile programs.
    We have engaged countries across Southeast Asia, Africa, and the 
Middle East that have been targeted by North Korea for proliferation-
related transport and sales, reminding them of their obligation to 
implement U.N. sanctions and working to strengthen their capacity to do 
so.

    Question. What challenges exist at the United Nations--particularly 
on the Security Council--to getting stricter enforcement of sanctions 
on North Korea?

    Answer. The United States continues to take steps to strengthen and 
bolster the existing sanctions regime, both through work in the U.N. 
context and through our own national measures.
    We continue to work actively and intensely with a broad range of 
partners across the international community to improve implementation 
of U.N. Security Council sanctions, particularly those that target the 
proliferation-related activities of the North's diplomatic personnel, 
its cash couriers, its banking relationships, and smuggling of items 
for its nuclear and missile programs.
    We have also expanded outreach to countries that have, or are 
exploring, diplomatic or trade relations with North Korea to press them 
not to engage in military, WMD or other activities prohibited by U.N. 
resolutions or targeted by U.S. sanctions. Burma's announcement that it 
would end its military relationship with North Korea and comply with 
U.N. resolutions is the best example of the results of these efforts, 
which will continue.
                                 ______
                                 

          Responses of Special Envoy Robert King to Questions 
                   Submitted by Senator David Perdue

    Question. What is being done by your office--and throughout the 
State Department--to bring attention to and halt this practice?

    Answer. We are deeply concerned by the DPRK's systematic and 
widespread use of forced labor. The North Korean Government subjects 
its nationals to forced labor in prison camps, through mass 
mobilizations, and through government-contracted labor in foreign 
countries.
    The State Department continues to highlight these deplorable 
practices through our annual reports, work with international 
organizations and governments 
that share our concerns, and raising awareness through public events 
and private meetings.
    We are also leveraging different U.N. tools to highlight the issue, 
including by cosponsoring and lobbying for the passage of the annual 
DPRK human rights resolutions at the Human Rights Council and the U.N. 
General Assembly.
    Over the past year, we have also increased our efforts to further 
document and disseminate information on forced labor of DPRK workers in 
other countries. In June, we hosted a meeting with like-minded 
governments at which a former North Korean overseas laborer shared 
information about his experience working at a construction site in 
Kuwait. This prompted a discussion about possible actions to combat the 
practice and improve labor conditions for North Korean overseas 
laborers. We are coordinating closely with our embassies in countries 
hosting North Korean workers to express our concern regarding the 
conditions of forced labor these workers experience and to press for 
the reduction and elimination of such forced labor.

    Question. What is being done to encourage host states to 
investigate practices involving North Korean labor conditions within 
their borders?

    Answer. We have raised our concerns with several host governments, 
and will continue to work with them and other partners on this issue. 
As part of these efforts, our Special Representative for International 
Labor Rights has raised concerns about North Korean laborers on recent 
trips. In addition, we continue to support nongovernmental 
organizations conducting international advocacy campaigns to promote 
the human rights of North Koreans.

    Question. Are there ways to punish nations who host North Korean 
laborers? Is State pursuing punitive measures?

    Answer. We are developing targeted strategies to address these 
issues, with the goal of taking further steps that will have the 
greatest chance of improving the lives of North Korean citizens. A wide 
range of countries currently host North Korean contract workers, and 
our approaches may vary depending on the host country situation. We 
continue in diplomatic conversations and public discussions to press 
for reduction and elimination of such forced labor.

    Question. How effective are these soft-power measures that draw 
attention to the failings of the Kim regime, like the U.N. Commission 
of Inquiry on Human Rights in North Korea, at changing the actions of 
the Kim regime?

    Answer. Since the release of the U.N. Commission of Inquiry (COI) 
report in February 2014, we have made significant progress in our 
effort to increase international attention and pressure on the DPRK. 
Our DPRK human rights policy has focused on giving voice to the 
voiceless by amplifying defector testimony, and increasing pressure on 
the DPRK to stop these serious violations. We are actively working to 
advance accountability for those most responsible.
    We have maintained pressure on the DPRK by continuing to cosponsor 
and lobby for the passage of strongly worded resolutions condemning the 
human rights situation in North Korea in both the U.N. General Assembly 
and Human Rights Council. A new tough resolution was adopted at the 
Human Rights Council in March-April of this year; and a strong 
resolution is under consideration at the General Assembly with a vote 
expected later this year. In December 2014, the U.N. Security Council 
convened its first-ever formal discussion of the human rights situation 
in North Korea.
    Secretary Kerry and U.N. Permanent Representative Samantha Power 
have both hosted meetings at the U.N. to shine a spotlight on North 
Korea's gross human rights violations and to give voice to the victims 
of DPRK abuses. In addition to public events, we have conducted a 
number of campaigns highlighting North Korea's atrocities. North Korean 
political prisoners were highlighted as part of our #Freethe20 social 
media campaign.
    These actions are clearly making an impact. Pyongyang is feeling 
the mounting international criticism over its human rights violations 
and has begun to respond.
    In what has been described by the media as a North Korean ``charm 
offensive,'' North Korea sent its Foreign Minister to the high level 
session of the U.N. General Assembly in September 2014 for the first 
time in 15 years, and he was back in New York again this fall. Senior 
DPRK officials have dramatically increased the number of visits to 
other U.N. member states to urge other countries to vote against 
resolutions critical of the DPRK's human rights practices in the U.N. 
General Assembly and Human Rights Council. In May 2014, the DPRK, for 
the first time, agreed to consider recommendations made in the first 
and second cycles of the Universal Periodic Review process.
    North Korea is clearly feeling the pressure. We believe it is 
imperative to maintain and even increase this pressure, to follow up on 
the recommendations of the COI report and to continue to call out the 
DPRK on its human rights violations. Given the nature of the North 
Korean regime, and the difficulty monitoring human rights conditions in 
one of the world's most closed societies, we must have realistic 
expectations regarding the willingness of the DPRK's leaders to change 
their atrocious behavior. Nevertheless, we need to continue to focus 
the world's attentions on the DPRK's widespread human rights violations 
and remind North Korea's leaders that the international community will 
seek accountability for the North's actions.

    Question. What more can and should the U.S. do to draw attention 
and shed light on the atrocities being committed by the Kim regime on 
the North Korean people?

    Answer. We remain deeply concerned by the systematic and widespread 
gross human rights violations committed by the North Korean Government 
and documented in the U.N. Commission of Inquiry report. Our DPRK human 
rights policy has focused on three objectives: giving voice to the 
voiceless by amplifying defector testimony, increasing pressure on the 
DPRK to stop these serious violations, and seeking ways to advance 
accountability for those most responsible. We have focused significant 
resources on amplifying defector voices because we believe these 
witnesses' stories are one of the most effective tools for shedding 
light on the ongoing abuses and increasing international awareness.
    We speak out frequently at the U.N. Human Rights Council and the 
U.N. General Assembly on DPRK abuses. Secretary Kerry hosted a meeting 
during the opening week of the 2014 U.N. General Assembly with the High 
Commissioner for Human Rights, several Foreign Ministers, and North 
Korean victims. We led the effort in the U.N. Security Council last 
December to place DPRK human rights violations on the Council's agenda, 
and we spoke against North Korean abuses at that meeting. We will 
continue to work with other Security Council members to ensure 
continued attention by the Council.
    The U.N. Commission of Inquiry report was instrumental in 
strengthening the international consensus on DPRK human rights. We 
supported the COI recommendation to establish a field office in Seoul 
of the Office of the High Commissioner for Human Rights. This office 
will be essential in documenting the ongoing abuses and increasing 
awareness.
    We have and will continue to host public events to shed the light 
on the human rights violations committed by the DPRK Government. In 
April of this year, Ambassador Power hosted a Victim's Voices panel, as 
a U.N. Side Event in New York. Last December, here in Washington, we 
hosted a panel of defectors for International Human Rights Day. In the 
coming months, we plan to host additional events to provide forums for 
defectors to share their stories.
    In addition to these and many other public events, we have 
conducted a number of campaigns highlighting North Korea's atrocities. 
North Korean women political prisoners were highlighted as part of our 
#Freethe20 social media campaign. We have also highlighted North 
Korea's human rights abuses through a Voices of North Korea campaign 
and a Prison Camps of North Korea campaign. We continue to seek out 
additional opportunities to leverage social media to draw attention to 
these issues.
    We support nongovernmental organizations (NGOs), which conduct both 
documentation and advocacy programs. Some of our NGO partners have been 
instrumental in hosting side events on the margins of the U.N. Human 
Rights Council and at the U.N. General Assembly. They have produced 
numerous reports focused on DPRK abuses ranging from political prison 
camps to forced labor. We will continue to support these groups.

    Question. The U.N. opened a field office in Seoul to focus on human 
rights this June. Can you describe your interactions with the U.N. 
field office, and any joint efforts on improving human rights in North 
Korea?

    Answer. We have fully supported the creation of the Office of the 
High Commission for Human Rights (OHCHR) field office in Seoul and its 
mandate to strengthen monitoring and documentation of the human rights 
situation in the DPRK; to work toward achieving accountability; and to 
support the work of the U.N. Special Rapporteur on DPRK human rights 
issues. Since the office's opening in June, Embassy Seoul and various 
State Department bureaus in Washington, including the Bureau of 
Democracy, Human Rights, and Labor, have visited the OHCHR office and 
met with its staff. Special Envoy for North Korean Human Rights Issues 
Robert King will also visit the office in November. The office was 
formally opened in June and its director arrived in August. As such, we 
look forward to increasing our engagement with the office as it becomes 
fully operational.
    The Seoul office and its staff function independently in accordance 
with its mandate from the OHCHR and the international community. We 
continue to support the OHCHR office and stand ready to offer our 
assistance in any way.

    Question. What efforts are being made to help North Korean 
refugees? Is any pressure being placed on China to stop its forced 
repatriations of North Koreans that illegally migrate to escape the Kim 
regime?

    Answer. The administration has established mechanisms in several 
countries to process North Koreans seeking refugee resettlement in the 
United States. In order to avoid jeopardizing the safety of North 
Korean asylum seekers or disrupting the efforts of North Koreans 
intending to reach the Republic of Korea, we act with utmost 
discretion. This also improves our ability to gain the cooperation of 
governments in the region. We respect the choice of North Korean 
refugees in determining in which country to pursue resettlement. For 
many individuals from North Korea, this is one of the first meaningful 
choices they are able to make. We are committed to ensuring that each 
North Korean refugee who is interested and eligible gains access to the 
U.S. Refugee Admissions Program. The Department of State is prepared to 
share additional details about U.S. Government efforts on behalf of 
North Korean refugees with interested Members of Congress and their 
staff in a classified setting.
    During the past fiscal year, we have continued efforts to 
facilitate the admission of refugees from North Korea to the United 
States. The U.S. Government coordinated with two host governments to 
process the applications of 23 North Koreans who were seeking admission 
to the United States as refugees. Fifteen individuals granted refugee 
status have arrived in the United States. Of the remaining eight 
individuals, four individuals were pending DHS/USCIS adjudication and 
four individuals were pending exit permission from the country of first 
asylum. The 15 arrivals included 3 unaccompanied minors.
    The United States communicated to the United Nations High 
Commissioner for Refugees (UNHCR) that North Korean asylum-seekers are 
given priority access to the U.S. Refugee Admissions Program and that 
the United States will consider any North Korean applicant who 
expresses interest in U.S. resettlement. Throughout the region, UNHCR 
continues to work closely with us on cases of North Koreans seeking 
U.S. resettlement. We believe that UNHCR--which holds the international 
mandate for refugee protection--is often best suited to offer immediate 
protection to North Korean asylum-seekers while their cases are being 
processed for third-country resettlement.
    Advocates and nongovernmental organizations working in the region 
report that the Governments of China and North Korea continue to 
severely restrict the movement of North Koreans to and within China. 
Despite being a party to the 1951 U.N. Convention on Refugees and its 
1967 Protocol, as far as we are able to determine, China continues to 
enforce its policy of forcefully repatriating North Koreans apprehended 
in its territory back to North Korea. Despite these restrictions and 
the risk of forcible repatriation, each year significant numbers of 
North Koreans are able to flee North Korea, passing through China en 
route to countries where they may seek protection.
    The Department of State continues to raise our concerns about 
China's treatment of North Korean refugees with Chinese officials on a 
regular basis and at senior levels. China has unique leverage, and we 
will continue to urge China to respect the U.N. Convention on Refugees 
and to pressure DPRK leaders on human rights as well as 
denuclearization.
    More can be done and more needs to be done, however. We remain 
actively engaged with China at a variety of levels on the importance of 
enhancing pressure on Pyongyang.

                                  <all>
</pre></body></html>
